<html>
<title> - S. 1447, IMPLEMENTATION OF THE AVIATION AND TRANSPORTATION SECURITY ACT</title>
<body><pre>[Senate Hearing 107-1110]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1110
 
S. 1447, IMPLEMENTATION OF THE AVIATION AND TRANSPORTATION SECURITY ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation










                 U.S. GOVERNMENT PRINTING OFFICE

91-255                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001













       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2002.....................................     1
Statement of Senator Allen.......................................    28
Statement of Senator Boxer.......................................     3
    Prepared statement...........................................     4
    Letter, dated May 17, 2002 from John L. Martin, Airport 
      Director, San Francisco Airport............................    21
Statement of Senator Burns.......................................     2
Statement of Senator Cleland.....................................    23
    Prepared statement...........................................    25
Statement of Senator Dorgan......................................    26
Statement of Senator Hollings....................................     1
    Prepared statement...........................................     1
Statement of Senator Hutchison...................................    37
Statement of Senator McCain......................................    13
Statement of Senator Nelson......................................     5
Statement of Senator Snowe.......................................    30
Statement of Senator Wyden.......................................     3

                               Witnesses

Mineta, Hon. Norman Y., Secretary, Department of Transportation, 
  accompanied by Hon. John W. Magaw, Under Secretary of 
  Transportation for Security....................................     6
    Prepared statement...........................................     8

                                Appendix

Rockefeller IV, Hon. John D., U.S. Senator from West Virginia, 
  prepared statement.............................................    43
Response to written questions submitted by Hon. Max Cleland to:
     Norman Y. Mineta............................................    49
     John W. Magaw...............................................    52
Response to written questions submitted by Hon. John F. Kerry to 
  Norman Y. Mineta and John W. Magaw.............................    55
Response to written questions submitted to Norman Y. Mineta by:
    Hon. Ernest F. Hollings......................................    44
    Hon. Kay Bailey Hutchison....................................    62
    Hon. John McCain.............................................    58
    Hon. John D. Rockefeller IV..................................    54















S. 1447, IMPLEMENTATION OF THE AVIATION AND TRANSPORTATION SECURITY ACT

                              ----------                              


                         TUESDAY, MAY 21, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 

SR-253, Russell Senate Office Building, Hon. Ernest F. 
Hollings, Chairman of the Committee, presiding.

         OPENING STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. The Committee will come to order. I am 
reminded of President Reagan. When he would go in the Cabinet 
Room he said, as the Good Lord said at the Last Supper, if you 
want any picture, everybody on this side.
    [Laughter.]
    The Chairman. We are delighted to have the hearing with 
respect to the implementation of airport security. Secretary 
Norman Mineta and the Under Secretary in charge of security, 
Mr. John Magaw. I am going to file my statement for the record. 
I would yield to Senator Burns.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Good morning Secretary Mineta and Under Secretary Magaw. It has 
been six months since the passage of the Aviation and Transportation 
Security Act, which symbolized a complete change in the way we approach 
and conduct security for our nation's air transportation system. We 
have asked not only you, but travelers all throughout the country to 
accept a new reality--one where everything is searched, and people are 
randomly checked.
    In the name of security, we have asked people to give up some of 
their personnel freedoms to protect our country. The American public 
has shown great faith in our efforts--passengers are accepting the new 
process and returning to airports, which has allowed air carriers to 
resume flights at near normal levels--but we must be more vigilant than 
ever to ensure that ``normalcy'' does not translate into 
``complacency'' as we move forward with implementing the requirements 
of the Security Act.
    We set a series of tough deadlines in the Security Act--we knew 
they were hard to meet when we set them, but we did not want to let 
anything stop the moment to make changes. While you have generally met 
the requirements of the Security Act to this point--which I commend you 
on--two significant deadlines are looming by the end of the year. In 
particular, TSA is required to have Explosive Detection Systems or EDSs 
in use at all commercial airports and screening every bag that goes on 
a passenger airplane by December 31st, or use alternative means until 
EDSs are installed. The Security Act also mandated that the Federal 
government assume control of all airport security personnel by November 
19th. I have concerns about your approach and timing to ensure these 
milestones are reached.
    I have heard your views on EDS, Secretary Mineta, and I believe we 
must proceed with great caution not to set up a security system that 
appears strong, but offers a backdoor which leaves us extremely 
vulnerable to attack. In announcing that you would purchase 1100 EDSs 
to be used in conjunction with Trace Detection for large airports and 
trace only, for now, at small airports, you must make sure that you 
follow up and upgrade all of the airport security systems as soon as 
the next generation of EDSs are available. I also urge you to use 
additional procedures for small airports so that large and small 
airports receive equal levels of security.
    However, when the Senate passed the Security Act by a vote of 100-
0, it was mindful of not setting up a dual-tiered approach that would 
provide such a backdoor. We want one level of security, a system where 
large airports get better security than small airports is not 
acceptable to us. The picture of the hijackers going through Portland, 
Maine, remains clear to everyone. Nothing could be worse than a false 
sense of security that lulls us into lowering our guard.
    With the success that the terrorists had on September 11th, they 
will undoubtedly try to find our weakness again. News reports are 
already indicating the likelihood of another attack, and this time we 
must be ready. The Israeli onion ring of security, a layered approach, 
constantly shifting to keep the terrorist of guard, is what I know you 
want to establish. I need you to convince me that your plans for EDS--
short--and long-term--are viable. Time is of the essence.
    Other matters also remain to be addressed. It seemed to me that you 
were off to a strong start in deploying a Federal screener workforce to 
every commercial airport in the country, but with the number of 
employees that you will require more than doubling by most accounts, I 
would like to hear about the status of these efforts as they now stand. 
I am also increasingly concerned about the security of the cockpits on 
passenger airplanes, so much that I recently introduced a bill, S. 
2497, which will require that cockpit doors remain closed while in 
flight unless the plane is fitted with mantrap doors which provide 
secure entrance and exit for the flight deck.
    These concerns are just the tip of the iceberg. I realize the 
enormity of your task. You can not fail. You must continue to work with 
us about your thoughts, your concerns, and your needs. The challenge 
remains to develop a system of security which considers all potential 
targets, recognizes every potential threat, and justifiably restores 
the confidence of the American people. We continue to expect this 
challenge to be met.
    Finally, I have been reading with keen interest about the lack of 
coordination between the intelligence agencies. In the Security Act, we 
specifically included all of these groups so that you had the best 
information available. If you have any problems, please, I urge you to 
let us know.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Mr. Chairman, I do not have a statement to 
be filed.
    The Chairman. Do you want me to make one for you?
    Senator Burns. That sounds like being the auctioneer, and 
you sell some of the sales, and the buyers and the bidders are 
a little bit draggy. I offered to handle their bid for them. I 
would go much faster, and the prices would improve with it.
    Thank you, Mr. Chairman, for holding this hearing. I think 
its timing is good. We have all experienced new airport 
regulations and the implementation of those regulations. I can 
say that some of them are working. It cost me seven pairs of 
socks, Mr. Secretary. You cannot get through there with boots 
on. They always take your boots off. Now, you can have no holes 
in your socks, and for us who wear boots, the socks must match. 
Up until this point we have never had that problem. You just 
pick out two socks, put them on and come to work. I think the 
story has been reported they would not take my Senate ID card, 
but they did take my Sam's Club. I thought that was a step in 
the right direction.
    But other than that, things are going pretty well. I want 
to hear from the witnesses today, Mr. Chairman, and get their 
assessment of how things are being implemented. I think it is 
going to become very costly, and we must be aware of that, but 
also what price do we pay for security of our flying public, 
and I thank both of you for coming today.
    The Chairman. Thank you. Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman, for holding this 
important hearing. The freeze-frame picture of Mohammed Atta 
breezing by the security checkpoint is now seared into the 
minds of the American people, and in recent days there have 
been new questions about the process for sharing information 
between intelligence and the aviation community that in my mind 
raises questions about whether the system is to a great extent 
dysfunctional.
    The public, and it comes up at all of the meetings that I 
hold at home, wants answers, and particularly they want 
accountability. Those are going to be the questions that I zero 
in on this morning, and I very much thank you for holding this 
hearing, Mr. Chairman.
    The Chairman. Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, I ask that my full statement 
be entered into the record.
    The Chairman. It will be included.
    Senator Boxer. First of all, welcome. I know you are 
working very hard, and we all must, because of the world we 
live in. As I think everyone knows, all four hijacked planes on 
9/11 were headed for California. Thirty-nine Californians were 
simply trying to make their way home and they lost their lives.
    We know we were caught off-guard. We know we cannot be 
caught off-guard again, and that is why I am so glad the 
chairman is holding this hearing, because every one of us has 
to keep each other's feet to the fire. You need to keep ours, 
Mr. Mineta, we need to keep yours.
    I hope that we will discuss two major issues today. One is 
the notifications of airlines and airports of terrorist threats 
prior to the attacks on 9/11. Some people said, do not talk 
about that. Well, I am sorry, I am going to talk about that. I 
am going to ask questions about it. I have written to all of my 
airports asking them, did you get warnings that there could be 
hijackings in America by Osama bin Laden's people? That is my 
understanding of what the administration knew. So far, they did 
not get anything specific. American Airlines has put out a 
statement they never got anything that specific, either. United 
has told us verbally they never did.
    So I want to know what guides us when it comes to telling 
the airlines and the airports. It seems to me if they knew 
hijackings in America by Osama bin Laden, and that is my 
understanding that they did have that information, maybe things 
could have been different, and as Condi Rice has said to us in 
our caucus, well, we did not know they were going to use the 
planes as weapons, and she said, we could not shut down the 
whole system.
    Well, that is a straw man, Mr. Chairman. There is a lot 
between shutting down the whole system and telling airlines 
that now there are alot of potential hijackings coming our way, 
so that is one area.
    The other is the air marshals. Mr. Mineta, I wrote the 
language with my chairman and Senator McCain dealing with air 
marshals, that they are supposed to be on all high-risk 
flights, and priority given to nonstop long distance flights.
    Now, I have been briefed by Mr. Magaw on this a while back. 
I cannot go into where we are with air marshals, because that 
is nothing you want to discuss. I just want to know if you are 
satisfied with where we are, because I ain't, and I want to 
know when you feel you will meet the spirit and the letter of 
the law that we passed.
    I have been troubled about buying enough machines to check 
for bombs. I think you have moved on that, but I still want to 
talk more about that, because bag match does not do it for us.
    Lastly, CBS News investigation that showed people getting 
through security with fake ID's. I introduced legislation to 
provide for training of airline personnel to detect these false 
ID's, and I think it is very important that we move on that, so 
those are my concerns. I have deep concerns. I think we are 
safer now than we have been in a long time, but I do not think 
we are safe enough, and I am glad we are holding this hearing.
    Thank you.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Good morning. Mr. Chairman, I appreciate you holding this hearing.
    On September 11, all four hijacked planes were headed for 
California. Consequently, 39 Californians who were simply trying to 
make their way home lost their lives in these attacks along with 
thousands at the World Trade Center and the Pentagon.
    Terrorists transformed our aviation system into a weapon. The 
United States was caught off-guard. And we should never be caught off-
guard again.
    I want to address two major issues today. First, the notification 
of airlines and airports of terrorist threats prior to the terrorist 
attacks on September 11. I am greatly troubled that the Administration 
had warnings of potential hijackings and did not notif5i American or 
United Airlines or the airports of these specific threats.
    The Administration has claimed that the airlines were notified. 
American Airlines has publically said that they ``received no specific 
information from the U.S. government advising the carrier of a 
potential terrorist hijacking in the United States in the months prior 
to Sept. 11, 2001.''
    Today, I want to learn whether the procedures for notifying 
airlines and airports of potential threats have improved since 
September 11. My information is that the President knew that hijackings 
were being planned by Osama bin Laden to take place in America. Steps 
could have been taken to strengthen airport security.
    Second, I want to discuss the implementation of the security 
legislation passed last fall. As we get further and further from 
September 11, we should not forget the importance of ensuring that our 
aviation system is secure.
    Following the attacks, it was clear that Congress needed to act 
swiftly to make our nation's aviation security system the best it could 
be. And that is what Congress did when it passed the Aviation Security 
Act--which President Bush signed with flourish.
    Air travel today is more secure than it was last September. But it 
can be made more secure.
    I am concerned that we still don't have enough air marshals on 
planes. I know the number of air marshals is classified for security 
reasons. But, as the Senator who wrote the provision to ensure that air 
marshals are on board all high-risk flights, with priority given to 
nonstop, long-distance flights, I will continue to actively monitor the 
Department of Transportation's (DOT) progress on this issue--which 
doesn't currently meet my idea of what is necessary.
    I am also concerned that the baggage detection machines will not be 
in place by the end of this year. We need to ensure that these baggage 
detection machines are in place by the deadline if not sooner.
    Finally, I was troubled by a CBS news investigation that showed 
people getting through security with fake IDs. Therefore, I introduced 
legislation to provide for training of airline personnel and the 
deployment of technology to address this problem. I trust this training 
will begin even before my legislation passes.
    The United States has proven that we can successfully fight a war 
half a world away against tremendous odds, including rough terrain, 
bitter weather, and a fanatic enemy. We have been successful. And, we 
continue to be successful beyond all measure because of one thing: we 
have the will to win. We need that will to win in ensuring that our 
nation's aviation system is secure. Thank you, Mr. Chairman.

    The Chairman. Senator Boxer, you are right on target. I 
really resist this idea about second-guessing, as it becomes 
second nature. That is one of the primary functions of a 
Congress, is to second-guess, and oversight, and to find out 
how to second-guess, and that is what we are trying to do.
    I can tell you here and now that was a tremendous, 
unfortunate, of course, intelligence failure. I could go into 
it very thoroughly, but let me recognize Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, as you know, Florida was the 
unfortunate site of aircraft flight training for terrorists. As 
a result, when you brought your bill through the Committee and 
took it to the floor, I was able, fortunately, to amend a part 
of that bill last fall that would require background checks on 
foreign students at flight schools, and it has been some 6 
months since that bill became law, and it needs to be 
implemented.
    As of today, the information that I have is that through 
the executive branch of Government that law has not been 
implemented. I think it is important that we bring that up 
today so that the Secretary, as he oversees this Goliath, and 
what a huge job you have, Mr. Secretary, it is all the more 
important, because now it has just come to light, the FBI 
Phoenix memo that specifically noted that Middle Eastern men 
were doing flight training at Embry-Riddle Aeronautical 
University at Prescott, Arizona. All the more underscoring the 
importance, as we approach terrorism in the future, of having 
these background checks done pursuant to the law that we 
passed, and that I had some little part of simply because of 
Florida being so vividly in my mind, what happened down there.
    So I call that to the attention of the Committee. I call 
that to the attention of the Secretary and all the other 
thousands of things that he has to do, but I think this might 
be worthwhile, Mr. Secretary, for you to double-check that.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Secretary, we in the Congress have been 
dragging our feet. We have not really gotten serious about the 
war on terrorism. I say that advisedly. While we did pass 
airline security immediately, the seaport security has 
languished in the House of Representatives since before 
Christmas, the rail security has languished on the calendar 
since before Christmas. We have not gotten serious about it at 
all.
    We had a terrorism insurance bipartisan bill that was ready 
to go in this particular committee. Nothing has been done 
there, and yet they are over here talking about cloning and 
estate taxes. That is a real emergency? We need to hurry up and 
get the estate tax law made permanent from 10 years from now? I 
mean, that is the kind of nonsense we are going through 
politically, and some of that spills back into the Departments 
of Government.
    So we welcome you here this morning, and I know we have 
both got a job to do. We would recognize now Secretary Mineta.

        STATEMENT OF HON. NORMAN Y. MINETA, SECRETARY, 
         DEPARTMENT OF TRANSPORTATION, ACCOMPANIED BY 
            HON. JOHN W. MAGAW, UNDER SECRETARY OF 
                  TRANSPORTATION FOR SECURITY

    Secretary Mineta. Thanks very much, Mr. Chairman. Let me 
just parenthetically say that we strongly support your bill on 
port security.
    The Chairman. And we appreciate that.
    Secretary Mineta. We were able to get the administration's 
statement of the administration policy on that.
    The Chairman. The White House will stand up to bin Laden, 
but they will not stand up to DeLay and Armey.
    Secretary Mineta. On the rail security bill we tried to get 
Minority Leader Daschle to move on that bill, and hopefully we 
will still get action on that.
    Mr. Chairman and Members of the Committee, I am very 
pleased to appear before you to give this update 6 months after 
President Bush signed the Aviation and Transportation Security 
Act into law. Accompanying me today is John W. Magaw, our Under 
Secretary of Transportation for Security, and the head of the 
Transportation Security Administration.
    As you know, John has the day-to-day responsibility to 
build the Transportation Security Administration, or TSA up to 
full strength, and he is doing so under extremely tight 
statutory mandates.
    Mr. Chairman, with respect to aviation security, much has 
changed in the last 6 months. My written testimony provides 
details about many of these changes, and I would like to 
highlight a few of them for you.
    On 17 February of this year the Transportation Security 
Agency, or Administration, took over all civil aviation 
security functions that had previously been performed by 
private enterprises and overseen by the Federal Aviation 
Administration. As we complete the transition to Federal 
security screeners for all 429 commercial airports, the TSA has 
entered into contracts with many private companies to provide 
interim screening services, and we have begun the Herculean 
task of recruiting over 50,000 Federal passenger and baggage 
screeners for the 429 airports around the country.
    We have already hired some 900 skilled individuals slated 
to fill transportation security screener supervisory positions. 
We have awarded a contract to train these new screeners in 
accordance with strict standards established by the law and by 
our procedures. The screeners will receive some 40 hours of 
classroom, five times what they did previously, and 60 hours of 
on-the-job training in the use of sophisticated x-ray 
equipment, conflict resolution, sensitivity training, civil 
rights and customer service.
    We are well on our way to hiring the Federal Security 
Directors for the major airports around the country, and these 
highly qualified FSD's provide the day-to-day operational 
leadership for security responsibilities at their assigned 
airports. They will answer directly to Under Secretary Magaw, 
and during a time of crisis they may be able to exercise the 
authority of my office, effectively closing and sealing 
airports pending resolution of the airport crisis.
    Congress established an ambitious schedule for the 
screening of all checked baggage with explosive detection 
systems by December 31, 2002, and we fully intend to meet that 
goal. We have awarded contracts for the acquisition of both 
bulk EDS, the mini-sized machines, and the smaller explosive 
detection, trace detection machines, and both types of machines 
will enhance our capability to screen all checked baggage.
    We also face a significant challenge, not fully 
contemplated during the legislative debate on this issue, 
namely, hiring the necessary employees to operate explosive 
detection equipment at airports. We estimate that we will need 
approximately 21,500 employees to operate this equipment in a 
manner that allows the aviation system to function without 
massive delays.
    We will complete the phaseout of National Guard deployments 
by May 31, when all of the remaining 4,600 NET Guard personnel 
will be released, and I join with the rest of the Nation in 
thanking them for their faithful service. State and local law 
enforcement offices will replace the guard pursuant to 
agreements entered into with the Transportation Security 
Administration, and as we place TSA law enforcement officers at 
airports, we will phase out these agreements as well. We 
continue working aggressively to put in place a robust Federal 
Air Marshall program, and will remain exactly on track with the 
targets that we earlier provided to Congress in closed 
testimony.
    Of course, executing changes of this magnitude requires the 
allocation of adequate resources. We have made great progress 
in implementing the statutory responsibilities that have been 
assigned to us for collecting security fees from certain 
airline passengers and domestic and foreign carriers.
    Unfortunately, some Members of Congress have signalled a 
hesitancy to allocate the resources necessary to properly 
secure America's aviation system. They say we cannot afford the 
security commitment that was made some 6 months ago. The truth 
is, we cannot afford less than the $4.4 billion that the 
President proposed. TSA will fulfill all of its statutory 
requirements, but without the full level of funding requested 
by the President, passengers at the Nation's airports will face 
long lines and flight delays.
    And finally, let me say a few words about intelligence-
gathering and sharing. Although I cannot disclose the details 
of our efforts in a public forum, I can assure you that the TSA 
remains focused on generating the best possible data on 
domestic and international terrorist threats in the aviation 
world and continues our longstanding commitment to share all 
credible information with appropriate parties.
    While the Aviation and Transportation Security Act gage the 
TSA broad authority for security responsibilities over modes of 
transportation other than aviation, it did not delineate 
specific authorities.
    Mr. Chairman and Senator McCain, I appreciate the work of 
this Committee in moving S. 1214, the Port and Maritime 
Security Act of 2001, through this Committee and through the 
Senate. The administration strongly supports this bill, and so 
I look forward to the House passing its version so that the 
Senate and the House may proceed to conference.
    Mr. Chairman, this concludes my statement. I ask unanimous 
consent that my full statement be made a part of the record, 
and Mr. Magaw and I will be pleased to answer your questions.
    [The prepared statement of Secretary Mineta follows:]

   Prepared Statement of Norman Y. Mineta, Secretary, Department of 
 Transportation, accompanied by Hon. John W. Magaw, Under Secretary of 
                      Transportation for Security
    Good Morning Mr. Chairman, Senator McCain, and Members of the 
Committee. I am pleased to appear before you to give you an update on 
where we are, six months after the President signed the Aviation and 
Transportation Security Act (ATSA) into law. Accompanying me here today 
is the Honorable John W. Magaw, my Under Secretary of Transportation 
for Security and the head of the Transportation Security Administration 
(TSA). John has the day-to-day responsibility to build TSA up to full 
strength, perhaps the largest undertaking to create a new Federal 
agency since the Second World War, and he must do this under extremely 
tight mandates that you established last year in ATSA.
    On February 5th of this year my deputy, Dr. Michael Jackson, 
appeared before you and gave you a detailed briefing midway between the 
60th and 90th day following ATSA's enactment on November 19, 2001. Much 
has occurred since then.
    When we last testified before this Committee, John Magaw had only 
recently been confirmed by this Committee and the full Senate. We had 
few staff on board TSA. We had not yet taken over the screening 
functions at airports throughout the United States. We had no federal 
screeners at all. We had not yet hired any Federal Security Directors 
(FSD) for our airports. We were in the process of evaluating bids for 
important contracts, including hiring and training of airport 
screeners, and the purchase of equipment to allow us to meet our 
mandate for screening checked baggage. We had not yet collected any of 
the security fees that Congress authorized in ATSA, from either 
passengers or air carriers. National Guard troops were on the scene at 
airports throughout our Nation. On the local scene, Ronald Reagan 
Washington National Airport was still under restricted flight 
schedules, causing what we all realized was economic dislocation to the 
area.
    I am pleased to report that aviation transportation security is 
much better today than it was prior to September 11. It will be better 
next week, and will be better still once the Department's new, 
nationwide system stressing consistent and common sense security is 
fully in place.
    On February 17th of this year, TSA took over all civil aviation 
security functions that had previously been performed or overseen by 
the Federal Aviation Administration (FAA). Until Federal security 
screeners can be hired at all commercial airports, TSA entered into 
contracts with many companies that provide screening services . At some 
locations, TSA also entered into other transactional agreements with 
some air carriers to reimburse them for screening services. In doing 
so, we increased the pay scale for many of these employees to induce 
them to remain at their posts until Federal screeners are in place. We 
had great concern that many of the contract screeners would leave, 
particularly since many of them do not qualify for Federal screener 
positions because of their citizenship status. This would have greatly 
disrupted the commercial air transportation system.
    We have published a rule requiring certain aircraft operators using 
aircraft weighing 12,500 pounds or more to implement a strengthened 
security program that includes criminal history records checks on their 
flight crews and restricted access to the flight deck. These security 
regulations apply to both all-cargo and small scheduled and charter 
passenger aircraft not already covered by a security program. These new 
requirements will take effect on June 24, 2002.
    We have begun the Herculean task of hiring over 30,000 federal 
airport passenger screeners for the 429 airports around the country. We 
have advertised these positions throughout the country and by the 
Internet. We awarded a contract to NCS Pearson to assist us in 
reviewing the applicants' qualifications and in testing the applicants 
for the screening positions. Through them we have hired 900 skilled 
individuals who are slated to fill Transportation Security Screener 
Supervisory positions. We awarded a contract to Lockheed Martin to 
train the screeners in accordance with the new, strict standards 
established by ATSA and our procedures. The screeners will receive 40 
hours of classroom and 60 hours of on-the-job training. We are using a 
``train-the-trainer'' concept where a core group of contract employees 
are first trained. They in turn train other contract employees who 
serve as the cadre of trainers to train the prospective TSA airport 
screeners. The training will be rigorous. It is preparing the TSA 
screeners in use of sophisticated X-Ray equipment, conflict resolution, 
sensitivity training, civil rights, and customer service. The students 
are taught in a classroom setting, in a lab using real world scenarios, 
and with computer-based training. The students must pass a two-part 
examination that includes both a written exam and the use of the X-Ray 
equipment.
    On April 30th we reached a watershed at Baltimore / Washington 
International Airport (BWI). At 4:00 a.m., TSA screeners from our 
Mobile Screening Force (MSF) took over responsibility for passenger 
screening at Piers A & B. These were the first fully TSA manned 
checkpoints in the Nation. BWI is serving as our laboratory as we begin 
to fully federalize the workforce. It is also where we are testing new 
procedures that will make the screening process not only more effective 
from a security standpoint, but more passenger friendly and efficient. 
On May 14, TSA assumed authority over all checkpoints at BWI. The MSF 
will later move around the country as we continue what we call our 
``Roll Out'' strategy to bring all of the airports on line by the 
statutory deadline of November 18, 2002. My goal is to set in place a 
screening system that will effectively screen passengers and move them 
through the system in 10 minutes or less. BWI Airport is serving as the 
locale to test this goal. I am encouraged that a recent passenger 
survey at Dallas/Fort Worth International Airport showed that 93 
percent of the participants had a security check-in process of 10 
minutes or less.
    As part of our goal to educate the flying public and minimize 
delays in the screening process, we recently published a revised set of 
``Prohibited Items'' that passengers may not take through a security 
checkpoint. We have clarified those certain items that previously might 
have been prohibited, like nail clippers, nail files and tweezers, are 
now permitted. We are urging passengers to familiarize themselves with 
this list and to leave these items at home. We want to remind the 
traveling public of our motto: ``No weapons, no waiting''. To emphasize 
the importance of educating the public not to bring prohibited items 
through airport security checkpoints, from February 17 through April of 
this year, over 977,000 prohibited items were intercepted, resulting in 
302 arrests. We will work hard to educate the public on this.
    I am very pleased that we are rapidly hiring our Federal Security 
Directors for the major airports around the country. Those that have 
been selected so far are without doubt men and women of distinction. We 
are fortunate to have them. They come with extensive backgrounds in law 
enforcement, security and management. We have people like George 
Nacarra, a retired Coast Guard rear admiral at Boston's Logan 
International Airport, Gail Linkins of the U.S. Secret Service at 
Mobile Regional Airport, Leopoldo Vasquez, Jr. retired U.S. Army at the 
San Antonio Airport, and Willie Williams, former Chief of Police of the 
Philadelphia and Los Angeles police departments, at Hartsfield Atlanta 
International Airport, to name just a few. We have awarded a contract 
to Korn/Ferry International to assist us in the executive search for 
more of these fine managers. The FSD will provide the day-to-day 
operational leadership for Federal security responsibilities at the 
assigned airports. During a time of crisis, the FSD may be required to 
exercise the authority of my office, and effectively close and seal an 
airport, pending resolution of the event or crisis. I am confident that 
we have the right men and women for this critical job. While we are 
selecting the permanent FSD's for the larger airports, we have 
appointed Interim Federal Security Representatives for all U.S. 
airports having scheduled passenger service.
    Congress established an ambitious schedule for us to provide for 
screening of all checked baggage with Explosives Detection Systems 
(EDS) by December 31, 2002. We are working hard to meet that 
requirement. We have awarded contracts for the acquisition of both bulk 
EDS, the so-called minivan sized equipment, and the smaller Explosives 
Detective Trace (EDT) machines. Both machines will enhance our ability 
to screen all checked baggage and meet the December deadline. We plan 
to purchase approximately 1100 bulk EDS machines this year. We have 
already ordered 500 machines and we have assurances from the suppliers 
that they can meet our needs.
    We have also purchased and deployed more than 1100 EDT machines and 
we expect to acquire a total of between 4,600--4,800 for all airports. 
I realize that the physical installation of the bulk EDS machines is an 
issue at many airports. We have allocated $350,000 per airport to help 
airports offset these costs. We understand that some airports have 
concerns that this is insufficient. If Congress provides additional 
direction and funding to increase the amount available for 
reimbursement we will follow this direction.
    We are also facing a great challenge in hiring the necessary 
employees to operate the explosives detection equipment at the 
airports. This requirement was not fully considered when ATSA was 
drafted and the estimates of the number of proposed TSA employees were 
made. We estimate that approximately 21,500 employees will be required 
to properly man this equipment so that the aviation system functions 
on-time. Ultimately, we hope to be able to rotate baggage screeners and 
passenger screeners so that neither group of employees suffers from 
boredom and fatigue, a common problem with repetitive tasks.
    We have also instituted or planned pilot projects to test different 
ways to screen all checked baggage at the Nation's 429 commercial 
airports. The pilot project locations were chosen to provide a cross-
section of American airports and to test different configurations of 
equipment and procedures. We have selected 5 airports in Michigan, 
Virginia, Maryland, Texas and Florida.
    As I testify before you today we are in the process of phasing out 
National Guard deployments throughout the country. Many have already 
left. We will complete the phase-out by May 31, when all of the 
remaining 4600 National Guard personnel will be released. I, along with 
the Nation, thank them for their faithful service. They have been or 
will be replaced by state and local law enforcement officers pursuant 
to agreements that TSA has entered into. These agreements will ensure 
the traveling public that we have trained law enforcement officers 
available to handle any crisis that might develop. We may phase-out 
these agreements as more and more TSA law enforcement officers are 
hired and placed at airports. We are aggressively moving forward on 
this front too. We selected the Federal Law Enforcement Training Center 
in Glynco, Georgia as the home of the new TSA Law Enforcement Academy. 
We are ramping up its training capability., We will be able to begin to 
train 200 Law Enforcement Officers a month by July.
    I would like to briefly mention the Federal Air Marshal program. 
Although there is little that I can and should disclose in public, I 
can assure you that we are working aggressively to put in place a 
robust Air Marshal program. This will provide another layer of added 
security during flight operations. We are exactly on track with the 
targets that we provided to Congress in closed testimony.
    We are also working hard in the difficult area of perimeter 
security at airports. We have convened a Perimeter Security TSA 
Advisory Council that includes TSA and airport personnel and we 
commissioned a dedicated perimeter security group to assess security 
gaps and develop recommendations. We are coordinating with other 
federal agencies in this task.
    I am pleased to report to you that on March 13, I ordered the 
resumption of full commercial flight operations into Reagan National 
Airport by April 15, 2002. This is occurring with heightened security 
measures in place. Now we can move on to restoring General Aviation and 
charter airlines operations as well. My Assistant Secretary for 
Aviation and International Affairs testified two weeks ago before the 
House Government Reform Committee on this subject and we announced that 
by the end of this month we plan to publish proposed rules in the 
Federal Register to allow this to occur, again with appropriate 
security measures in place.
    I am also pleased to report to you that we have made great progress 
in implementing the statutory responsibilities assigned to us for 
collecting security fees from certain airline passengers and domestic 
and foreign carriers. We began collecting the September 11 passenger 
security fees for February 2002 in March. For February we collected 
$106 Million, and we collected $146 Million for March. We expect to 
receive $125 Million for the April fee, which is due on May 31st. The 
amount of this fee that we expect to collect each month is variable and 
is directly related to the number of qualifying passenger tickets that 
are sold each month. The first payment of the Aviation Security 
Infrastructure fee imposed on air carriers is also due on May 31st . 
The amount of this fee is based on data that the airline carriers are 
in the process of providing to us. We expect that the first payment, 
which will cover the period from mid-February through April 30th will 
be significantly larger than the monthly fees that we will collect 
thereafter.
    While I am on the subject of money, I would note that I fully 
support the President's Supplemental Appropriations request that will 
provide much needed funds not only for TSA but also for the Coast Guard 
and other modes of transportation. I hope that the Congress will 
provide these much needed funds so that we can fulfill our statutory 
obligations.
    Up until this point, I have only addressed aviation security 
issues. I would like to just briefly mention our continuing concern and 
responsibility for cargo and passenger security in all modes of 
transportation. We are fortunate to have succeeded in inducing Rear 
Admiral Richard Bennis, recently retired from the U.S. Coast Guard, to 
join TSA as the Associate Under Secretary for Maritime and Land 
Security. Admiral Bennis is assembling a staff of similarly outstanding 
professionals that will put together a comprehensive plan to ensure the 
safety of cargo from its point of origin to its point of destination. 
This will cover many different modes of transportation and will require 
the close cooperation of not only other Federal agencies, public port 
authorities and privately owned railroad, air cargo and trucking 
companies, but other national governments. We are working closely with 
the International Maritime Organization to begin the important effort.
    While the Aviation and Transportation Security Act gave TSA broad 
authority for security responsibilities over modes of transportation 
other than aviation, we realize that specific authorities were not 
delineated in that Act. Mr. Chairman and Senator McCain, I appreciate 
the work of this Committee in moving S. 1214, the ``Port and Maritime 
Security Act of 2001'' through this Committee and through the Senate. 
The Administration strongly supports this bill. I look forward to the 
House passing its version so that the Senate and House may proceed to 
Conference.
    This concludes my statement. Mr. Magaw and I will be glad to answer 
any questions of the Committee.

    The Chairman. Thank you. Mr. Magaw, we can have a statement 
from you, or you can assist as we move along in the hearing 
here and with the answers.
    Right to the point, on the $4.4 billion, this Committee 
will work and make certain that you get sufficient money. 
Congress can readily vote $190 billion for the farmers. I think 
it can find $4 billion for security here, in the airline 
business, otherwise on the one hand--we have got to have, Mr. 
Magaw, better coordination with these airports. I have sort of 
faulted the FAA because it has been run by the pilots and the 
airlines.
    On the other hand, what we have now is your security group 
in all the airports wondering where the machines are going to 
go and how they plan for it, and they are being told, well, 
when we decide, we will come and tell you, and that kind of 
thing. I think we can do a little bit better if we can 
coordinate it and give them some idea of the size, the location 
and everything else, get a team working on that so that when it 
comes about they will have a better idea on security.
    But Mr. Secretary, on the other hand, with the FAA and the 
pilots and everything else like that, I have noticed with 
frustration this intramural about, first the pilots wanted 
guns, no, we will give them stun guns, then the flight 
attendants wanted metal bars 18 inches long, crowbars, and I 
guess we are going to give the passengers machetes and all and 
let them all just fight it out in the cabin.
    If I was a terrorist I would say, whoopee, we do not have 
to worry about all the security and your EDS system and 
whatever else. They have got all the weapons on board for me. 
All I have to do is grab a bunch of them and take the plane 
over. It is intramural. It has been going on and on.
    I sat at that table, Mr. Secretary, right where you sat. 
Senator Burns I know was with me, and we listened to the chief 
pilot of El Al, and he was worth listening to, because they 
have not had a hijacking in 30 years on El Al, so he was 
talking about the onion ring of security and how it all worked, 
and then he said, and Senators, by the way, when I get to that 
cockpit door, once it is secured, it is never opened in flight. 
They can be assaulting my wife in the cabin. I go straight to 
the ground, and law enforcement meets me.
    You and I know if a hijacking was attempted, whoopee, let 
us go to Havana, Cuba, I always wanted to go, and that kind of 
thing. Now the signals have entirely changed, and the 
terrorists know they may blow up a plane through the luggage 
and get past there, they might cause a fight and some injury 
back in the cabin itself, but they never can--let us see what 
happens. They never can take and come off of Reagan and go into 
the White House, come off of Reagan and go into the Capitol, 
come off La Guardia and go into the Empire State, or O'Hare and 
go into the Sears Building, go into a nuclear power plant.
    If you just put in that rule, you do not have to have the 
planes flying all around, the National Guard supplementing 
everything. You do not have to have the pilots worrying about 
whether I can turn around in the seat quick enough before I get 
knocked on the head. I mean, they are all strapped up. What am 
I going to do with a pistol? They are to fly and not to fight.
    You do not have to have this--I was on a plane yesterday 
coming in from Charlotte, North Carolina, and the pilot came on 
the loudspeaker system and says, now, folks, anybody who wants 
to go to the bathroom, hurry up, because once we take off, 
nobody is allowed to stand. If somebody stands in this flight 
we immediately, under the law, go to another field and land, 
and whoever stands is going to be taken off and arrested, to 
jail, yes, siree. I think that is the Magaw Secret Service 
rule, about \1/2\ hour after take-off and \1/2\ hour before 
landing.
    None of that is necessary. None of that is necessary if you 
put in the tried and true method, so--everybody has got to go 
to the bathroom, but the astronauts do not say let us go back 
to Canaveral I have got to go to the bathroom. Come on, let us 
get with it. This is serious business.
    The Vice President finally recognized the day before 
yesterday, he said, we are at war. Do not be asking about your 
President when we are at war. Well, why don't they act like it? 
It is so easy to put in the rule, and for the ones, the distaff 
side that wants privacy, fine, they can be assigned--these 
planes can be outfitted.
    Yes, it is going to take some time. Right now, you might 
have to give them a ball job, but what we have got to do is 
have a rule, certainly on the short flights. You can put that 
rule in right now and cut out all the argument about stun guns, 
pistols, 30 minutes before, 30 minutes after, what about the 
buildings, and everything else like that, for a tried and true 
system, and you folks continue to debate it in my newspaper. 
Why the debate, Mr. Secretary? Why don't we act?
    You know, this is our problem. We have a good memory, and 
the reason that the Republicans said that wait a minute, let us 
give this to Justice Department and not to Transportation is 
that Transportation crowd will debate with the pilots and the 
airlines, and debate with the pilots and the airlines, and 
nothing gets done. That is why it passed 100 to nothing to go 
to the Justice Department.
    What is your comment?
    Secretary Mineta. First of all, I still feel that the 
decision that the Transportation Security Administration be 
within the Department of Transportation was the right one. 
These kinds of debates are not done in a vacuum, and they have 
got to be made given the realities of life, and to me, whether 
it is a log cabin or an astronaut that has to go back to 
Canaveral to go to the bathroom, pilots still have to go to the 
bathroom as well.
    The Chairman. They can hold it for a flight. I can tell you 
that right now, we had two coming from Charlotte for an hour. 
Yes, siree, if somebody stood up we have to go to another 
airfield and land and anyone stood up is to be arrested.
    Secretary Mineta. Senator, the original requirement on 1/2 
hour going out of Reagan, or the 1/2 hour coming into Reagan 
was a Secret Service requirement for flights in and out of 
Ronald Reagan Airport.
    The Chairman. That is right, and that is not any good. It 
is not even necessary. Just keep the cockpit door closed. You 
say the reality. The reality is, we have got a 30-year track 
record of success. You can put up a sign in Arab--that is 
typecasting, let us say, try to hijack, go to jail, put that in 
every one of the airports in America so they will all know 
hijacking is over with. You can get it over with, but you all 
continue to debate stun guns or real pistols.
    Secretary Mineta. Well, a debate on that issue, of course--
and I will let John speak to that, because we are about to make 
an announcement, but----
    The Chairman. 6 months later you all are about to make an 
announcement. That is wonderful. Do not let it come out too 
quick.
    Secretary Mineta. Just like legislation takes time, 
decisions coming out of the executive branch also require 
thought as well, and so we are not quick to jump to 
conclusions, and we are trying to balance the interests 
involved. I do not think we can be faulted on that. Maybe 
sometimes a little slow in making the decision, but in terms of 
trying to balance the interest, I think that is in the interest 
of public policy.
    The Chairman. Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, sir. I take it from the last 
conversation that you are about to make a decision. Is that 
right, Mr. Magaw, on the guns?
    Mr. Magaw. Concerning firearms in the cockpit, yes, sir, 
after a lot of consultation and months of work.
    Senator Burns. Do you want to pull that microphone a little 
closer.
    Senator McCain. That will come out of Mr. Burns' time. Go 
ahead.
    [Laughter.]
    Mr. Magaw. Utilizing the experience of my 40 years in law 
enforcement, and consulting with all of the interested parties 
and having our staff with a lot of experience look at this 
issue, and obviously consulting all along the way with 
Secretary Mineta, I will not authorize firearms in the cockpit.
    Senator McCain. You will not?
    Mr. Magaw. No.
    Senator McCain. I thank you. The administration's 
supplemental funding request indicates there will be 
approximately 41,000 passenger and checked bag screeners at 
TSA. However, that report was issued over the weekend 
indicating that TSA will need 57,000 such screeners. It is a 
large disparity. How many screeners will the TSA need?
    Secretary Mineta. Well, I have heard about this 57,000 
figure, and I am not sure where it comes from. We have been 
using 51,232 as the number of FTE's for passenger screening, 
and this morning on WTOP I heard the figure 57,000, and I am 
not sure where that comes from, but in any event, what we are 
looking at for 2002 is 51,232 for fiscal year 2003. We are 
looking between 65 and 67,000 FTE's for fiscal year 2003.
    Senator McCain. Mr. Magaw, about what percentage of your 
staff is in place at this point within the TSA?
    Mr. Magaw. In terms of our headquarters, we expect to try 
to administer to the organization with about 1,300 people. We 
have about, a little over 400 presently.
    Senator McCain. About what percentage are we talking about 
that are in place, or you expect to be in place overall in 
America?
    Mr. Magaw. In our headquarters it would be a third. In the 
field, in the Federal Security Directors, we are about a third 
of that also. Screeners, we are well below that, but there are 
thousands of them in training, hundreds of them in training. On 
the Federal Air Marshalls, that schedule is right on board, as 
discussed with Senator Boxer a number of months ago, and that 
is right on schedule.
    Senator McCain. Thank you. Can we realistically expect all 
airports to have EDS equipment by the end of the year?
    Mr. Magaw. All airports would not have EDS equipment, as I 
think the Committee is referring to, and that would be the CAT-
scan procedure. They will have either the EDS or the EDT, the 
trace equipment, or a combination of both in most cases.
    Senator McCain. Secretary Mineta, at a recent hearing 
before the Appropriations Committee, you announced you have no 
problem with diverting AIP funds, the airport improvement 
program funds, from capacity projects to security items in the 
short term. Do you have any estimates how much AIP funding will 
be required in 2002 or 2003?
    Secretary Mineta. In terms of the total amount, it probably 
amounts to about 10 percent of the AIP funds that we would be 
using for security and operational requirements. Without a 
doubt, the airports have been telling us that their need for 
construction and other security requirements imposes this, and 
because from our perspective right now demand is down in terms 
of travel, so we have said okay, go ahead and use AIP for the 
security requirements.
    Senator McCain. Well, I think it is a little dangerous, 
because there are ongoing projects and proposed projects which 
exceed, frankly, the amount of AIP funds available, so I think, 
Mr. Chairman, we ought to look at that situation over time.
    I want to get back, Mr. Magaw, to this issue of the EDS 
equipment being installed. I am not sure I really understood 
the answer. In other words, according to the legislation, EDS 
equipment was going to be installed by the end of the year in 
every airport. That is not going to happen, is it?
    Mr. Magaw. The explosive detection equipment--there are two 
different kinds. There is the EDS, which is basically a CAT-
scan type, and also trace. Using those two in combination, we 
expect to meet the commitment that that equipment will be in 
place by the end of the year, 31 December. If you were talking 
about all CAT-scans, which are the big SUV type, they will not 
all be there, because a lot of airports cannot even handle that 
kind of equipment.
    Senator McCain. It is kind of the argument that there will 
be different quality of equipment, depending upon the size of 
the airport.
    Mr. Magaw. Not so, sir. We have been working with our 
experts in the lab in Atlantic City and also with various 
company representatives. We have worked out pilot programs both 
at Salt Lake City--we are doing one now in Norfolk, and we are 
finding with the proper protocol, which I would be happy to 
discuss with you in confidential briefing, that these two 
technologies are comparable.
    At the same time, as the Secretary said, we are looking for 
what also can come down the road from entrepreneurial work, 
smaller, better, accurate.
    Senator McCain. Well, I want to thank you for the work you 
are doing, both you and the Secretary, and this issue of guns 
in the cockpit is going to be a very controversial one, and I 
know you will explain all the factors that went into making 
that decision, and there is one other point. I and others have 
sought a review of policies overall, not just intelligence, but 
diplomatic, economic, and the role of the executive branch as 
well as the Congress in its oversight of functions of 
Government that led to 9/11. Part of that may have been a 
responsibility melee with this Committee and me personally.
    I hope you will keep us very well-informed, not just in 
formal hearings but through periodic briefings, as to the 
measures that are being taken, particularly in light of the 
recent statements by the Director of the FBI and others about 
the, quote, inevitability of an attack on this country, so I 
think it really lends great urgency to us being kept informed 
quite frequently, and in some detail, otherwise we will have 
failed in our responsibilities perhaps, again, and as one of 
the architects of this legislation along with the distinguished 
chairman, I feel a special responsibility in this area, which 
was designed to cure many of the problems we saw were 
responsible for the tragedy of 9/11.
    I thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Burns.
    Senator Burns. Thank you, Mr. Chairman. We get bogged down 
in this issue of screening for explosives. That is not what 
happened on 9/11. Explosives were already on board. We had 
better get in the people business, and finding out where they 
come from and where they are going and this type of thing, if 
intelligence tells us so.
    The explosives on an airplane right now are not really of a 
concern to me. It is the kind of people who are determined to 
use the airplane as a weapon, and that is where I think we 
should be focused. Right now, I do not know how many people you 
are going to need for this. The cost is going to be monumental, 
but that is the cost of security, and we have to understand 
that.
    Are you still going to use some funds out of the AIP trust 
to do some of this work around the airports?
    Secretary Mineta. The construction for the explosive 
detection systems will still be done from the AIP.
    Senator Burns. Mr. Secretary, we are getting a lot of push 
back on that a little bit from our airports. Those funds have 
been designed for airport construction and infrastructure 
around that, and I guess if we could stretch the term, 
infrastructure, that could also be included, and I would 
imagine you have heard the same complaints whenever you hear 
from your airports.
    Secretary Mineta. Having been just prior to 11 September 
talking about delays and capacity problems, I am very sensitive 
to that, but it is just that since September 11 we have gone 
from capacity and delay now to security, and to the extent we 
want to plug the security hole I am saying okay to this, but I 
want to get back to the legitimate capacity and delay issues 
for which the AIP was created as soon as possible.
    Senator Burns. Have you done any kind of study of what the 
impact on AIP that will have?
    Secretary Mineta. The total amount, I believe it is 
somewhere in the area of about, I believe around $600-$700 
million, I believe. I will have to look at that and see, and 
get back to you.
    Senator Burns. I think the Committee would be interested on 
the impact of that trust fund, because I think all of us have 
gotten about the same letters and everything like that.
    Mr. Magaw, you made the announcement now that you are not 
going to allow firearms on the flight deck or the pilots to 
possess firearms on board an airplane. Are your air marshalls 
armed?
    Mr. Magaw. They are, sir.
    Senator Burns. What is the difference?
    Mr. Magaw. Training. The pilot flying the aircraft, the 
marshall taking care of business as it occurs in the passenger 
cabin. These marshalls are trained not only in the use of a 
weapon, but all of the kinds of things that would build up to 
that they can handle a lot of times by being in the right place 
at the right time with the proper physical leverage.
    It is in a much narrower area, so they have to practice all 
of these things in a tight aircraft. They have to be 
recertified every 90 days, and if they are not recertified they 
do not fly. They have a special firearms training which is much 
more difficult, much more strenuous than any other firearms, 
save maybe our Delta Force and a few of those special units in 
the military, because obviously if that firearm is discharged, 
obviously we do not want them under the normal circumstances to 
hurt or kill an innocent person, but we certainly also do not 
want them shooting that firearm with the possibility of 
bringing that airliner down.
    So their total function and total training and total 
commitment is the security of all of us who are on that 
aircraft, not only as we board the aircraft, but a presearch of 
that aircraft, conferring with all of the attendants on that 
aircraft, a number of what-ifs planned, and seated in a place 
where they can respond, also procedures with the crew so that 
they do not respond if it is a ruse, so it is a total 
commitment to that function, the security of that aircraft as 
we move forward.
    They will do whatever they have to, to the point of giving 
up their own life to make sure that that cockpit stays safe, 
and the cockpit and the aircraft is for the pilots to maintain 
positive control of that aircraft, and the positive control to 
them, and what is to me, is, get it on the ground as quickly as 
you can regardless of what is happening back there.
    They also tell me that with slight maneuvers, you cannot do 
a lot with a big aircraft, but unless you are seatbelted in, 
they can make your equilibrium so that you cannot function. I 
am looking also at putting cameras back there so they can see 
what is happening, and see how they are making these people 
fall and move.
    I know we have a short time here, but that is a fairly 
short answer to that question. It is really a detailed answer 
that needs to be there.
    Senator Burns. Well, are there more than one air marshall 
on a flight?
    Mr. Magaw. There is always more than one. When there are 
air marshalls on an aircraft, there would never be one by 
themselves. It would be more than one, and it could be more 
than that.
    Senator Burns. Whatever, and I do not want to bring 
anything to light here, but can both pilots fly the airplane?
    Mr. Magaw. Both pilots can fly the airplane.
    Senator Burns. You see, it just seems to me, when push 
comes to shove, and the element of surprise, and having 
qualified pilots that I entrust my life to up there, also go 
through the same training procedures, and I think the majority 
of them that want to be armed will submit themselves to that 
training, the same training you are putting your air marshalls 
through, and yes, they can make conditions back there 
unlivable, and a lot of things, but there are only certain 
things they can do, because there is always the possibility of 
passengers not being in the same condition physically or 
mentally than the people who fly and guard the airplane, and so 
I wish you would reconsider that, I really do.
    I am a cosponsor on a bill that is going to allow them to 
do that, and if we have people on that airplane who are willing 
to die in the commitment of such an act, I see no reason why 
they should not do it a little bit before they get it done, and 
that is kind of a Marine way to look at it, but that is just 
the way I think, and I think if push comes to shove--and I like 
the idea of the cameras. I think they can be installed rather 
inexpensively, and there are companies now, one being in my 
State, who have already designed cameras and surveillance 
equipment that would tell the pilot what is going on in the 
cabin.
    So I would ask you to reconsider that, with some strings 
attached. I think we should continue to look at that.
    I thank the chairman.
    The Chairman. Very good. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Secretary, the American people are now being barraged 
with reports that the Government warned the airlines in April 
of 2001 and again in June of 2001 that terrorists might be 
plotting to hijack or blow up an aircraft. I would like to know 
what the airlines were told by the Government, when they were 
told it, and in particular what guidance did the Government 
provide to the airlines about steps that they could take to 
address these threats in those three areas.
    Secretary Mineta. Well, first of all, information circulars 
and security directives were issued by the FAA, probably 
starting in the April-May time frame and continuing on through, 
to the airlines and to the airports, but in reviewing all those 
reports, they really are of generalized information gleaned 
from the intelligence reports, and very little in terms of 
specificity about the method or kind of things that might take 
place.
    I get an intelligence briefing on a daily basis, and I 
remember asking one time soon after September 11, is there a 
way of taking all the pieces of information that we have heard 
since I have been here on 20 January and putting those dots 
together to have anything point to anything? It is very, very 
difficult to do that.
    Senator Wyden. Mr. Secretary, do you know if any of these 
warnings were shared with the security screening companies? The 
reason I am asking is that as I look at these reports with 
respect to how the process works between the intelligence 
agencies and the aviation sector, I just see a process that 
seems dysfunctional, and what I want to do is work with you and 
the administration to repair it.
    I think we have got a structural problem here, and I think 
it would be very helpful in particular to see if these warnings 
are transmitted to the people on the frontlines, and that is 
why I would like to know, in particular, whether the warnings 
got in a specific way to the security screening companies, 
because obviously, before September 11 they had a very key 
role.
    Secretary Mineta. As to whether they were specifically, I 
know that my previous discussion had been with airports and 
airlines. In looking at a report here, it says, aviation 
industry security professionals. Now, whether that means 
screening companies, I cannot answer that, but I do know they 
were shared with airports and airlines. I will have to check to 
see whether or not they went specifically to the screening 
companies.
    Senator Wyden. Yesterday's Wall Street Journal, Mr. 
Secretary, reported the FBI informed the FAA a week before 
September 11 of the arrest of Mr. Moussaoui, the terrorist who 
wanted to learn, obviously, to fly large planes. The FAA chose 
not to pass along this information to the airlines, I gather 
because the individual was arrested. I think it would be 
helpful, though, to have you outline what are the criteria that 
are used to make these kinds of decisions, because again it 
goes to this process of how information is shared.
    Secretary Mineta. Well, with regard to the September 5 
cable, I had our FAA take a look at, our staff take a look at 
this. Our records clearly indicate that the FAA was not given 
any information at the time that would have required the 
issuance of a special alert. The FBI sent the FAA the following 
information in a cable June 5. It was a classified cable, 
meaning its contents were not to be widely shared.
    It said that Moussaoui's arrest was part of an ongoing FBI 
investigation. It stated that the only suspect was in custody, 
indicating any threat that he might have created had been 
removed. Nothing in the cable indicated that an event was 
imminent, and nothing in the cable indicated that the suspect 
had ties to any terrorist group.
    Finally, one important point about the cable sent to the 
FAA by the FBI, I do not know what the FBI learned in its 
investigation, but the cable it sent to the FAA simply said 
that Mr. Moussaoui wanted to learn how to, quote, take off and 
land a 747, unquote. It did not--and I repeat, it did not say 
that he only wanted to learn how to take off, and was not 
interested in learning how to land.
    The cable to the FAA said, rightly or wrongly, the only 
pilot training he wanted was how to take off and land, so take 
off and landing are the only two things that a suicide bomber 
is not interested in, and so based upon the nature of all of 
this information, the FAA decided the threat was general and 
nonspecific enough that it would wait for further information 
from the FBI before it should notify stakeholders in the 
aviation community.
    Senator Wyden. Let me ask you one other question, if I 
might, Mr. Secretary. As of today, Mr. Secretary, do you 
believe that the intelligence agencies are giving you 
sufficient information to evaluate these threats and to be able 
to make informed decisions concerning the precautions?
    Secretary Mineta. I think in my daily briefings with the 
CIA they are, in fact, giving me the wide range of information, 
and that I am well-served by that daily briefing.
    Senator Wyden. One other question if I might, Mr. Chairman. 
I know the light is on.
    Mr. Magaw, central to really strengthening this system for 
the future is accountability, and I am of the view that one of 
the key ways to do that is on an airport-by-airport basis. Do 
you plan on using undercover audits to look at the practices of 
airports on an airport-by-airport basis with respect to 
security?
    Mr. Magaw. Yes, sir, I do. In the structure of TSA is a 
unit that will, among many other things, do just that. The 
Department of Transportation Inspector General has already been 
doing some of that, and we encourage him to do continue that.
    Senator Wyden. I know my time has expired. I am going to 
follow up further with what is going to happen with those 
audits, and whether there are going to be consequences, because 
in the past we really have not seen those consequences. I thank 
you, Mr. Chairman.
    The Chairman. Mr. Secretary, you say you have been briefed 
by the CIA. Is that ongoing with respect to the FBI? Does the 
FBI brief you with respect to terrorist activities?
    Secretary Mineta. On counterterrorism, Mr. Chairman, they 
do.
    The Chairman. Because the act itself says seven-man 
committee. You have got Justice Department, Homeland Security, 
DOD, NSC----
    Secretary Mineta. On the domestic I get briefings from the 
FBI, and on the international I get briefings from the CIA.
    The Chairman. Senator Boxer.
    Secretary Mineta. Mr. Chairman, just in case I might have 
misspoken, I meant September 5 and not June 5, just in case, in 
my reference to the cable.
    The Chairman. Very good. Senator Boxer.
    Senator Boxer. Thank you.
    Mr. Chairman, I agree with you that the issue of protecting 
the American people at airports belongs with Justice and that 
is to say nothing bad about my friends. They are terrific 
people, but that is not their job, but that is a whole other 
day, I hope maybe. We should revisit this, but be that as it 
may, it is where it is, and we have got to deal with it now.
    I want to pick up on Senator Wyden's questioning about the 
warnings and what we did with it. The Wall Street Journal says 
a week--they are not talking about a June memo. They are 
talking about a week before.
    Secretary Mineta. I meant September 5.
    Senator Boxer. Now, they say investigators told the FAA 
that student pilot Zaccarias Moussaoui had been arrested and 
was under investigation as a potential terrorist with a 
potential interest in flying 747's. It said, the agency was 
told--that means the FAA--by the FBI that Mr. Moussaoui was 
being investigated after his instructors at a Minnesota flight 
school reported that he paid in cash to learn to fly Boeing 
747's, and it goes on to say, the logic at the time--this is a 
senior law enforcement official--was that he intended to hijack 
a plane.
    Now, I guess the answer that we did not have enough 
information is--it sounds a little bit weak to me. When 
someone's arrested and is being investigated for paying cash to 
learn to fly a jet, and the FBI is saying, a hijacking, and the 
fact is, we know that the President had a briefing that talked 
about hijacking, that talked about Osama bin Laden, that talked 
about on American soil, so looking ahead, not to look 
backwards, which I want the commission to do--I am supporting 
Senator McCain and Senator Lieberman. We have got to look at 
this, because this is a democracy and we should look at it, and 
I take great offense at those who say we cannot, we cannot look 
at mistakes, because if we take that route we are no better 
than dictatorships as far as I am concerned, so we need to look 
at that.
    But looking ahead, what kind of warning do you need to 
have? It would seem to me the President knew, and as I 
understand it, he was in Texas at the ranch, and he could not 
do an oral briefing. They had a piece of paper that said Osama 
bin Laden, hijacking, American soil.
    Now, when Condoleeza Rice was asked about it, her answer 
was, well, we could not shut down the whole system. Well, that 
is setting up a straw man, if you will. No one is suggesting 
shut down the system, but if you know Osama bin Laden, 
hijacking, American soil, it seems to me there could have been 
some specific warnings.
    Now, American Airlines, we asked them did they get any 
warnings. They put out a press release. They said they receive 
FAA security bulletins, but they are extremely general in 
nature, do not identify specific threat or recommend--and this 
is the important thing--any specific security enhancements.
    The FAA at that time closely regulated airline security, 
and the Federal security standards were not changed during the 
summer of 2001, so you had the briefing on Moussaoui, the 
President had the other briefing, and yet American Airlines 
never was told to do anything different. This is not about 
shutting down the system. It is just looking a little harder at 
people, so I am--I mean, Mr. Mineta, are you saying that you 
did everything right, I mean, I would like to ask you that 
question, after you received those warnings?
    Secretary Mineta. I am not sure I can make that statement.
    Senator Boxer. I asked San Francisco Airport. They heard 
nothing.
    Secretary Mineta. I am not sure. I do know that we issued 
information circulars. We issued security directives.
    Senator Boxer. I have a list of those.
    Secretary Mineta. Now, whether that went specifically to 
San Francisco Airport, I am not sure, but as you go back over 
all of the intelligence reports of 2001, they are general. 
There is nothing in terms of specificity.
    Senator Boxer. Wait a minute, I am confused. Isn't when 
they say, we have this person we have arrested, and he has 
taken flight school lessons, and we are worried about 
hijacking, that you do not consider that specific, that is 
general?
    Secretary Mineta. So what does that tell you? Does that 
tell you----
    Senator Boxer. I will tell you what it tells me, and I am 
trying to be fair here, I think, knowing what the President 
knew and what you knew, it seems to me that at the minimum we 
just give a more specific alert to the airlines and the 
airports. I have here, and I would ask unanimous consent to 
place in the record, a letter I received from San Francisco 
Airport showing the things that they got, the type of 
generalized circulars that they got.
    The Chairman. That will be included.
    [The information referred to follows:]

                        San Francisco International Airport
                                    San Francisco, CA, May 17, 2002
Hon. Barbara Boxer,
United States Senate,
Hart Office Building,
Washington, DC.

Dear Senator Boxer:

    In response to your request for information regarding warnings from 
the federal government of threats prior to the attacks of September 
11th, I want to provide you with a series of Department of 
Transportation notices received by San Francisco International Airport 
(SFO).
    Eight Information Circulars and Emergency Amendments were received 
from the period of April 18, 2001 through September 11, 2001.

  <bullet> April 18,2001--Information Circular
    Subject Continued Middle Eastern Threats to Civil Aviation

  <bullet> June 22, 2001--Information Circular
    Subject Possible Terrorist Threat Against American Citizens

  <bullet> July 2, 2001--Information Circular
    Subject Possible Terrorist Threat Against American Citizens

  <bullet> July 12, 2001--Information Circular
    Subject Man-Portable Air Defense System (MAN PADA) threat to Civil 
        Aviation

  <bullet> July 18, 2001--Information Circular
    Subject Possible Threat--Arabian Peninsula

  <bullet> July 31, 2001--information Circular
    Subject Continued Middle Eastern Threats to Civil Aviation

  <bullet> July 27, 2001--Civil aviation Security Emergency Amendment
    Subject: Additional Security Procedures

  <bullet> August 16. 2001--Information Circular
    Subject: Disguised Weapons

    Please note that SFO, and all U.S. Commercial Airports, routinely 
receive both Civil Aviation Information Circulars and U.S. DOT/FAA 
Civil Aviation Security Emergency Amendments which notify and advise of 
potential aviation security concerns. In addition to these notices, the 
FAA issues further information exclusively to U.S. air carriers.
        Very truly yours,
                                            John L. Martin,
    Airport Director

    Senator Boxer. Without beating a dead horse, I just believe 
we should have done, it seems to me, a little more than the 
general. I would have told, for example, the airlines, they 
have this guy who is going to flight school, we have another 
memo--why not share that type of information? It seems to me 
that you should share specific information, and I believe you 
had specific information.
    Secretary Mineta. I understand what you are saying now in 
terms of the wider distribution of the information that is 
available.
    Senator Boxer. Well, not wider. How about to the airports? 
How about to the airlines? Look, there is a lot of flap because 
Attorney General Ashcroft--it was announced on a news show 
before 9/11 that he was now no longer going to fly 
commercially, and on that same broadcast it said they knew of 
no specific threat against him, it was just a general thing. He 
was going to no longer fly commercial.
    Now, it is a big flap, and now they are saying, well, there 
was a specific threat. I do not know, but I have got to tell 
you something, we all represent the people whose lives are very 
important. It just seems to me that when we have specific 
information--when I say that, I look at this as specific. An 
individual, we know his name. We know he is taking flight 
school training. He is paying in cash. We have other 
information on the other side that says hijackings could be 
expected on our soil, Osama bin Laden, and everyone knew about 
Osama bin Laden.
    So enough. Enough said. I just think we need to do better 
in the future. I want to follow up on Senator McCain, the 
remaining minute I have, on the EDS machines. I know that we 
are not going to have as many as we need to have to do all the 
bomb check, and I think Senator Burns is right, the last time 
it was not about bombs in suitcases, it was about using an 
airplane as a bomb. Hopefully that day is over, but they will 
look at these other things.
    Now you are using these trace--what do you call those 
machines?
    Secretary Mineta. Trace detectors.
    Senator Boxer. Are those certified?
    Mr. Magaw. They are certified.
    Senator Boxer. Who certified them and when, because my 
information is, they are not certified.
    Mr. Magaw. They are certified, and they were certified by 
our Technology and Scientific Group in Atlantic City, so both 
technologies are certified.
    Senator Boxer. Can you send me a copy of that 
certification, because I have not seen it. Will we have another 
round?
    The Chairman. We can have another round.
    Senator Boxer. I will hold, thank you.
    The Chairman. Senator Cleland.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Mr. Chairman, Members of the Committee, 
distinguished panelists, ladies and gentlemen, I am deeply 
disturbed. I have to admit that. First of all, in terms of pre-
9/11 I do not think this Committee or any committee of the 
Congress or combination of committees is ever going to get at 
the totality of what really happened, so I do support--and I am 
an original cosponsor of Senator McCain's legislation, and 
Senator Lieberman's legislation to create an independent 
commission of stature and credibility that looks at the buildup 
to 9/11 and what happened and has the power of subpoena and has 
the power to access classified documents and find out exactly 
what happened, and inform the Congress and the American people 
so we can make sure it does not happen again.
    We did this after Pearl Harbor. It worked. We should do 
that now, and so I am somewhat frustrated as an individual 
Member of this Committee, getting at the story of pre-9/11. My 
concern and my fear now is that we still have not sorted out 
who is in charge of alerting the American people to a domestic 
threat, a threat to our homeland.
    Mr. Mineta, Mr. Secretary, I have to ask you this. Given 
the fact that before 9/11 various pieces of information were 
stovepiped and not communicated, and the dots were not 
connected so a decisionmaker could understand what was going 
on, and given the fact that now the Vice President of the 
United States in the last few days, and now the head of the FBI 
just in the last day or so has given warnings to the American 
people that there might be another terrorist attack on this 
Nation, is there anything you want to share with this 
Committee, based upon your understanding of the threat to this 
country, the threat to the airlines, the threat to the 
traveling public? Is there anything you want to share with this 
Committee now, and the American people, particularly the flying 
public, that you know that we might be able to take into 
account in our daily lives? Is there a threat to the flying 
public now, or is there not?
    Secretary Mineta. Well, I think in terms of security, the 
security today is much better. It is good, and I am completely 
satisfied and comfortable with where we are in terms of 
security.
    From the perspective of intelligence, again, I think, given 
what the Office of Homeland Security is doing, and in terms 
of--and that is where it is presided by the President. I am a 
member of the Homeland Security Council, and George Tenet of 
CIA and Bob Mueller, head of FBI, the Attorney General, Tommy 
Thompson from HHS, and General Downing from NSC, a number of us 
are sitting at the table and meeting on a regular basis, and so 
I think to the extent that we are around the table, commonly 
getting this information, is a good thing.
    I think in the absence of the ability to reorganize into 
some kind of Homeland Security Agency, I think what we have to 
be able to do is to have a data-mining and data dissemination 
mechanism. What I referred to in my suggestion was a data 
fusion center that would be headquartered probably within the 
Attorney General's Office in the Department of Justice, and 
that would get information from INS, Customs, Border Patrol, 
DEA, FBI, everybody, and become a repository for all this 
information.
    It will take quite a while to put that kind of data fusion 
center together, but I think that is something that is needed, 
and something that would address a concern that you have.
    Senator Cleland. Well, Mr. Secretary, I think it is needed, 
too, which is why I support a Homeland Security Agency that has 
a Secretary that sits in the President's Cabinet and has access 
to intelligence from many sources, and has actually troops, 
they command troops, Customs, the Border Patrol, INS and other 
agencies, and they can be that nerve center domestically where 
that information is congregated and collected and ultimately 
disseminated, like we have a nerve center in the Pentagon that 
keeps us informed about information around the world.
    I just think we need that. I think you are right on about 
aggregating intelligence information in a nerve center for 
domestic protection at least.
    That leads to my second question. If there were to be a 
known threat to airlines, airline safety as we saw it earlier, 
before 9/11, would we under the current organization, or lack 
thereof, hear from you that there was a threat to the traveling 
public and therefore take precautions, or would we hear it from 
the Vice President, or would we hear it from the head of the 
FBI, or would we hear it from the Homeland Security Director? 
Who would we hear it from?
    Secretary Mineta. I think under the present procedures you 
would hear it from the Homeland Security Director.
    Senator Cleland. Well, that is a real concern, but I 
understand where you are coming from. Can I ask you one more 
point here? We had an incident in Atlanta, at Hartsfield. They 
are a busy airport, where a young man broke through 
intentionally aviation security. We found out later, after he 
was apprehended, that breaking through aviation security at an 
airport is a misdemeanor. If you interfere with or breakthrough 
security in an aircraft, that is a felony.
    Mr. Magaw, do you have an opinion here, with 40 years in 
law enforcement--I have legislation making the deliberate 
breach of security at an airport a felony, so we are able to 
treat that with the seriousness that it now deserves. Is that 
something you would like to see in law?
    Mr. Magaw. Yes, sir. If you remember back when I was 
testifying for my confirmation, the subjects came up, look at 
all the different issues you are dealing with, come back and 
tell us some of the things we need to do. You have already 
addressed that issue, which is important.
    Senator Cleland. Thank you very much. Thank you, Mr. 
Secretary. Thank you, Mr. Chairman.
    [The prepared statement of Senator Cleland follows:]

   Prepared Statement of Hon. Max Cleland, U.S. Senator from Georgia
    Mr. Chairman, on December 10th, over 5 months ago, this Committee 
held its first hearing on aviation security since the landmark Aviation 
and Transportation Security Act was passed into law. I chaired that 
Atlanta field hearing in which we heard the Deputy Secretary of 
Transportation, Michael Jackson, describe the security safeguards which 
DOT and the FAA put in place after 9-11 and the first steps taken by 
his Department to implement the new law. Today, six months after 
President Bush signed the most sweeping aviation bill ever enacted into 
law, we will hold the third hearing on where the Department stands in 
the law's implementation. We'll get an update on two of the law's most 
formidable requirements: the conversion to a federal security workforce 
and the installation of explosive detection systems and explosive trace 
detection machines in every airport.
    I think I can say that each Member of this Committee understands 
and appreciates the enormous challenges facing the Department of 
Transportation. To create a new agency from scratch. To lay the 
groundwork for the largest civilian workforce in more than half a 
century. To put in place a security safety net at 740 passenger 
screening checkpoints and 429 airports nationwide. To screen one 
billion bags for explosives by the end of this year. To balance 
efficiency and customer service with a new and higher standard of 
security nationwide. To ensure that the events of September 11th are 
never, ever repeated.
    While we appreciate the challenges, we also have to address the 
problems in such an ambitious undertaking. The TSA budget has almost 
tripled over the past few months--from $2.4 billion to more than $6.8 
billion. The number of TSA security personnel has more than doubled. In 
fact, the latest estimate of 70,000 has spurred the House 
Appropriations Committee to prohibit funds for more than 45,000 staff 
at the agency in the FY 2002 Supplemental. And just yesterday, at BWI, 
the TSA's test airport, large numbers of flights were delayed. I have 
heard that the reason for these delays was because the Transportation 
Security Administration, which has now taken over security at the 
Baltimore airport, did not have sufficient staffing to handle the 
passenger loads.
    In light of the recent revelations--including information that as 
early as June 22 of last year the FAA issued a circular to the carriers 
warning of possible airline hijackings--we will have questions on what 
the DOT and FAA knew and when, on what the airlines knew and when, and 
who gave the directive not to share this information with the public 
and why. After September 11th, the government has shared information 
with the public about possible terrorist attacks--possible attacks on 
bridges in the West, for example, possible infiltrations of apartment 
buildings by terrorists, and now possible attacks by walk-in suicide 
bombers. To my knowledge, there have been no public warnings about 
possible attacks involving airlines, or any other mode of 
transportation for that matter. If such information comes to light, 
will the DOT and TSA choose this time to release the information to the 
public? Let me say that these questions will be asked with the full 
knowledge of this Committee that our panelists cannot divulge certain 
information which could compromise national security by benefitting 
those who wish America harm.
    In closing, I am forcefully reminded of a briefing given to the 
Commerce Committee by officials from El Al shortly after September 
11th. At that briefing El Al recommended a security model to the U.S. 
that puts the government in control of a multi-layered security net 
that relies on the sharing of information all the way up the ladder--
from the screener who checks passengers and baggage to the airport 
operator, all the way up to the top government officials in the Israeli 
chain of command. El Al compared the various levels of intelligence 
sharing to the layers of an onion. The recent revelations here in the 
U.S. underscore in red the imperative in this country to coordinate not 
only our intelligence communities, the Department of Defense, our 
Homeland Security Office, the TSA and the DOT, but also our 
intelligence network in the aviation system as well--from the federal 
screeners at our checkpoints, to the local airport law enforcement 
personnel, to our federal airport directors, to John Magaw at the 
Transportation Security Administration, to Jane Garvey at the FAA, to 
Secretary Mineta. So I look forward to hearing from our witnesses on 
this and other vitally important issues of aviation security.

    The Chairman. Thank you. Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    First, Secretary Mineta, Mr. Magaw, let me thank you. I 
think you have taken some action that relates to an 
understanding that one size does not fit all with respect to 
threat assessments and threat evaluations. The first missive 
was a 300-foot rule at airports, and you know Dickinson, North 
Dakota. 300 feet took out their entire parking lot, so you 
begin to take steps dealing with different airports and 
different threat assessments, and I think you have used some 
common sense there. I, for one, appreciate that, and thank you 
for taking a good look at it.
    Second, I think the chairman and others have said in 
different ways that we are busy in many ways preventing the 
last terrorist act, when our job really is to prevent the next 
terrorist act, and there is a big difference here. I would like 
to ask a question about the hundreds and hundreds of workers at 
many of the big airports that are doing catering, cleaning, a 
whole series of things on and around the airport, on and around 
the airplanes. That is also a very important security issue. 
What kind of progress are you making with that?
    The reason I ask is, there have been some investigations 
that suggest that people have been walking on and off the 
tarmac dealing with airplanes that have not been secured, that 
have criminal records and so on. Mr. Magaw, can you tell me 
what kind of progress we are making in those areas?
    Mr. Magaw. The entire package you have described is a 
concern to us. It is a concern to the airport managers. It is 
also a concern to the airlines, and so what we have now that we 
did not have a few months ago is all of these entities talking 
about how we can close that.
    Do we use technology to close some of it? Do we use manned 
human posts to close others? How do we secure the ramp, and 
when our Federal Security Directors are arriving there, they 
are discussing this, the whole airport, to include cargo, to 
include the overnight storage of the aircraft, to include the 
back gates and the parking for employees, and you are right, 
the catering units, all of those issues are being addressed. 
Some of the catering ones have been tightened up some, and we 
are looking at each one as we can get some personnel and people 
there to work with the airports in each of those areas.
    And I visited a number of airports to look at the cargo 
situation, to look at the back gate, to look at the surrounding 
fence. We just talked with Dallas-Fort Worth yesterday. They 
just put miles of fence around that airport with barbed wire on 
the top and those kinds of things, so every area is being 
looked at, sir.
    Senator Dorgan. Well, let me send you some questions on 
that, because I think when you talk about the catering 
companies, we are tightening up some. I think this has to be 
tight as a drum, because terrorists will find the weakest link.
    But let me ask another question, Mr. Magaw, and perhaps it 
goes to Secretary Mineta. We in our Aviation and Transportation 
Security Act created an oversight board. Mr. Mineta, you 
indicated you are getting daily briefings on foreign and 
domestic security issues. Is the oversight board working? That 
is supposed to be the Attorney General, DOT, Defense, National 
Security, Treasury, and Homeland Security.
    The reason I ask that question is, I think what we have 
learned in recent days is that the bureaucracy and turf battles 
really have clogged the information systems that you need to 
have working, and so the question is, is the oversight board 
working? Are you a part of that? How often do you meet, and so 
on.
    Secretary Mineta. We did have a meeting in, let us see, I 
believe it was in early April. Frankly, it has not been 
convened since, but it does meet quarterly, so right now we are 
not scheduled to meet until the end of July, but to that 
extent--and it is an oversight board, really, on the 
operational nature of the airport security, rather than on the 
intelligence side.
    Senator Dorgan. I understand that, but airport security is 
reliant on the intelligence coming in to describe the potential 
threat to you, and it seems to me that it is obvious terrorists 
do not operate on a quarterly schedule, so I am a little 
concerned that this oversight board that Senator Hollings and 
Senator McCain have created, I am a little concerned that they 
have only met once and plan to only meet quarterly.
    Now, Senator Hollings can better interpret that, but I do 
not think that was the intent of the legislation. My sense is 
that what we have learned in recent days is that there were 
disparate pieces of critical information in various places of 
the Government, but somehow it never came together, and the 
oversight board would bring all of that together, get rid of 
the turf battles, get rid of the bureaucracy that prevents 
information from flowing, essentially unplug these arteries of 
information.
    So I think I will want to submit some questions there as 
well, but my sense is there is an urgency here, and I am a 
little concerned. I appreciate your frankness here. I know you 
are perhaps not the one that is describing how the oversight 
board, or the information works, or how often you meet, but I 
think the intention was to bring these people together 
frequently to evaluate what exists out there.
    Now, let me ask you a question with respect to that. There 
has been a lot of discussion in the last 48 hours or so that 
Vice President Cheney and FBI Director Mueller and others have 
sort of said, not quite in these words, but it feels like 
something is about to happen. It feels like there is a greater 
urgency here. It feels like something is coming. I mean, that 
is what I get from all of this, including reading the paper 
this morning.
    If that is the case, and if that is the message we are 
getting from everybody, is there something that is happening 
internally with your organization, Mr. Mineta, or your 
organization, Mr. Magaw, that reflects this new and changed 
reality in the last 48 hours, and if so, what is happening that 
reflects that changed reality?
    Mr. Magaw. Each morning and each afternoon the groups that 
you are talking about, whether it is the National Security 
Council, whether it is Homeland Security, or CIA, or FBI have a 
classified briefing. We get together over secure voice 
telephone and talk about these particular issues.
    The concern, while not being as specific as we might like 
it, is a case where over the years, because of the way our 
country has functioned in terms of a very open democracy, cells 
of terrorists are virtually throughout the country, so the 
constant awareness of what they are doing, how they are doing 
it, why they are doing it is what the attention is on now, to 
try to not be caught like we were the last time, but to have 
the information and then act on it so that potential terrorist 
attacks can be stopped in their early nature.
    So there is clearly much more attention to having all of 
these agencies on the line talking together. There is much more 
interest now in putting a person from TSA in each one of the 
organizations, and vice versa, so that they are right there, 
making sure--so those kinds of things are tightening up. The 
feeling is that with that much spread of intelligence cells 
throughout the country and throughout the world, that the 9/11 
was not the only plan.
    Now, what are the other plans? If you remember, in 1995, in 
the Philippines, a plan was uncovered there that was going to 
blow a number of United States commercial aircraft up as they 
came across the ocean, so there are bits and pieces of planning 
around let us dig into it more, just as you are suggesting in 
all your conversations here, to make sure it is pieced together 
and to make sure that we are deciphering better when warnings 
are needed.
    Senator Dorgan. Mr. Magaw, just a final comment. Mr. 
Chairman, do not misunderstand our questions, or my questions. 
We want you to succeed. It is imperative for this country that 
you succeed in your mission, and it is a very, very difficult 
and daunting mission, so understand the questions are about 
wanting to figure out how we help you do your job and how we 
help you on behalf of this country succeed in that mission.
    The Chairman. Thank you. Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. I would like to ask 
you all some questions here. Let me say first I very much agree 
with Chairman Hollings' view on the importance of the cockpit 
being secure. I think that is the most important thing that can 
be done. I also want to commend you all. You have a very 
daunting task in improving security, as well as the economic 
viability of commercial aviation.
    Security does have to improve, and the more expeditious 
deployment of personnel and new technology is important for 
commercial aviation. People will choose not to fly if given an 
opportunity, and that directly impacts our economy as well as 
security.
    I want to inquire about a few things. First, let me make a 
statement. The small airports do have inadequate staffing. I do 
hope to work with you all for the small airports and their 
needs and their funding.
    First, I want to inquire about Reagan National Airport. I 
want to commend you, Mr. Secretary, as well as Jane Garvey, for 
your advocacy of reopening Reagan National Airport. It is 
important for our economy here, for access to our capital and 
the 10,000 people that work there. The restoration of general 
aviation at Reagan National is the last step toward 100 percent 
operation.
    As you know, Senator Warner and I have written the 
President on this. Can you share with us any progress toward 
reopening general aviation opportunities at Reagan National?
    Secretary Mineta. I think we have worked out all of the 
procedures now, and hopefully by the end of May we will be able 
to announce the opening of Ronald Reagan to general aviation 
and the return of Signature as the fixed base operator at 
Reagan National Airport.
    Senator Allen. Great. That is good news.
    Secretary Mineta. We are now trying to put the dots on the 
I's and cross the T's on that.
    Senator Allen. That is good news. Thank you, Mr. Secretary.
    I have stated on previous hearings my belief that modern-
day aircraft could be operated remotely if a pilot was in 
extreme circumstances. In other words, turn the aircraft over 
to a remote location.
    For example, there is research which would effectively 
limit where a plane may go. A topographic computer model of any 
route of any flight could be built that could designate any 
area off-limits. You could have a virtual fence around a city. 
You could have a virtual dome around a building that you wanted 
off-limits, such as nuclear power plant or the United States 
Capitol building.
    Do you think that we could make use of this kind of 
technology in tandem with your security precautions you are 
talking about, which would serve as a protective model for 
aircraft? Have you done any research, study, or evaluation of 
these technologies to determine the economic and technological 
feasibility?
    The New York Times just recently, on April 22, had an 
article on these new technologies that I think could help us 
become safer and certain, with off-limit areas.
    Mr. Magaw. In terms of the areas that you are talking 
about, there needs to be research in those areas. With 
everything else we have been getting started with at TSA, we 
have not started a specific study on those particular areas, 
but we have clearly identified more importance in terms of 
hiring technology research personnel to strengthen our efforts 
where it is located in Atlantic City.
    We have been talking about the secure communications 
between the cockpit and the ground. I know that is not what you 
are dealing with now.
    All the technology that is out there, and all the 
entrepreneurialship that we can bring forward, technology is a 
huge part of our answer. Where we will end up on those issues, 
Senator, I do not know, but I can guarantee you we will be 
looking at every piece of technology that is out there to see 
if it can work in a passage as you are describing.
    Senator Allen. Thank you.
    There is one final area I would like to discuss with you 
since you announced the position regarding pilots being able to 
carry firearms. As Senator Dorgan said we are looking at the 
future, not the past, but obviously you do have to do a post 
mortem, an analysis of what has happened in the past.
    If the pilots on those commercial airlines which were 
commandeered on September 11 had had pistols to defend 
themselves and their planes, would that have made a difference?
    I think in particular, if Captain Burlingame, the pilot of 
Flight 77 which hit the Pentagon, who was a Navy Reservist, had 
fought for our country, obviously trained in firearms, and able 
to land a wounded F-4 Phantom on the deck of a rolling aircraft 
carrier had had a firearm to protect himself and that plane, 
would that have made a difference in those situations?
    Mr. Magaw. Well, it may have, but that is a lot different 
today than it was then. My feeling is, is that you secure the 
cockpit as much as you possibly can, make it a secure area for 
them to function in, and then if something does happen on that 
plane, they really need to be in control of that aircraft, 
whether it is getting it on the ground, whether it is 
maneuvering it so it knocks people off-balance that are causing 
the problem, and to introduce that now, to put a weapon in 
there, there is a lot of discussion, areas that we have that 
would take too long here today, but the situation is different.
    You now have the hardened doors, even more highly 
technological doors coming on board next year. Some cameras 
have been put in aircraft right now that the pilots can see 
what is going on back there. We are working through that. The 
air marshall program is a very large program now and getting 
larger, and so the air marshall program will be very helpful.
    It also is a case of where we are still looking at in 
detail--and I need more time here--and that is less than lethal 
force for those pilots, and so I am looking at all of that 
technology at the same time, but it is clear in my mind, when I 
weigh all of the pros and cons, pilots should not have firearms 
in the cockpit.
    It can be everything from what we have been discussing here 
to the type weapon, the training, 14,000 more pilots in 
airplanes carrying weapons, how many of them will want to do 
that, and how many will be able to pass the qualification? If 
they cannot pass the qualification, do they now not fly? I 
mean, there are huge issues here.
    When I weighed all of them, I made a decision, and stick by 
that decision, because it has taken me long enough to make it, 
that I will not permit firearms in the cockpit. Obviously, if 
the Congress overrules that, or there is a law made, I will 
stand up and abide by it, and do everything I am asked to do. 
Absent that, I am not going to permit firearms in the cockpit.
    Senator Allen. Thank you. Mr. Chairman, my time is up.
    The Chairman. Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    Mr. Secretary, Mr. Magaw, thank you for being here today. I 
certainly appreciate it.
    There has been a lot of discussion about who knew what and 
when. I was interested to read in William Safire's column 
yesterday that there was a report of a suicide bomber belonging 
to Al Qaeda's martyrdom battalion, which went to the National 
Intelligence Council under the previous administration, warning 
of crash-landing of aircraft packed with high explosives into 
the Pentagon, the headquarters of the CIA, or the White House, 
and this report was dated in September of 1999, and nothing was 
done with that report in the previous administration, and it 
was deemed not actionable, so obviously the notion was out 
there.
    Mr. Secretary, were you briefed in any way by your 
predecessors about this report, about this potential threat?
    Secretary Mineta. No. I have no knowledge of this.
    Senator Snowe. None whatsoever?
    Secretary Mineta. None.
    Senator Snowe. So this was not an issue within your 
Department when you assumed your position as Secretary of 
Transportation?
    Secretary Mineta. Frankly, I missed yesterday's column, 
too. I did not see it.
    Senator Snowe. Well, I just think it is very interesting, 
because this was done with the National Intelligence Council, 
and that was back in September of 1999, and obviously nothing 
had happened then, and President Bush requested within 6 months 
a briefing on preexisting threats on domestic targets by 
potential terrorists. I just think it is interesting that it 
had been out there for 2 years on that whole notion, and 
nothing had been done previously.
    Mr. Secretary, could you tell us how you would describe the 
process on aviation security at this point, given the mandates 
under the law, which are obviously numerous, but do you think 
that we are making excellent progress, good progress, fair 
progress? Where do you think we are?
    Secretary Mineta. Well, I think we are making very good 
progress, and the only thing that is concerning me right now is 
the supplemental appropriations that is in the House, and the 
fact that they have cut back from the President's request, and 
so to the extent that they have cut back from the President's 
request, it just seems to me that the logical follow-on is 
either delays in implementing the program, or the fact that we 
will have longer lines at the airports in dealing with 
passengers.
    Senator Snowe. This summer?
    Secretary Mineta. Yes, because right now by the end of May 
we will run into an Antideficiency Act problem, and so we will 
at that point start slowing down signing contracts on employing 
baggage screeners and passenger screeners, and equipment that 
we have purchased already will remain in the warehouses because 
we will not have money for installation or the people to 
operate those machines.
    Senator Snowe. So that is something we obviously have to 
address very quickly here.
    Secretary Mineta. That is right.
    Now, on the other hand, we will meet the dates that are 
mandated under the law, so that all it means is passenger 
delays rather than delays in meeting what is in the law.
    Senator Snowe. Now, on the baggage screening, what 
percentage of bags are being screened today with explosive 
detection devices?
    Secretary Mineta. Well, because now we probably only have 
35 percent of the machines online, I would say that roughly 35 
percent of the bags are getting checked right now. The bag 
requirement is December 31, and so to the extent that we have 
that number of bag explosive detection systems either in terms 
of EDS or ETD, I would say it is somewhere between 30 and 35 
percent.
    Senator Snowe. Now, I do have some concerns about setting 
up a two-tiered system for security with respect to these 
detection devices, the EDS at the larger airports and the trace 
detection devices for the smaller airports. Is that a concern 
to you?
    Secretary Mineta. It is not. We have gone through this over 
and over again, because I had that same concern that you have 
about a two-class citizen approach on security, and that is 
something that we do not want to have, and so one of the things 
that we have done is to make sure that in running the protocol 
on the EDS, and the EDS and the EDT go together, or having the 
EDT as a stand-alone, and in doing this over and over again, I 
am totally satisfied that the equivalency in terms of security 
is there, and that there is no less security because of the use 
of the ETD at the smaller airports.
    Now, the explosive detection system, because it has such a 
high rate of false positives, has to have the ETD to check on 
it, and so again, I do not feel that the ETD is any lesser a 
machine.
    Mr. Magaw. Senator, may I say something just a moment? I 
apologize for taking your time to correct a mistake I made to 
Senator Boxer, but I have just been informed that the ETD 
machine, and correcting the record, the ETD machine has been 
qualified for use by FAA and use by TSA, but it has not been 
formally certified, as you indicated. It has met the 
performance standards. The formal reports and the formal, final 
approval for that is not yet done, but it is well underway, so 
I wanted to correct my statement. I apologize for that.
    Senator Boxer. I appreciate that.
    Senator Snowe. On security personnel, the Washington Post 
described how many restricted areas at Dulles Airport are not 
guarded by security personnel and equipped with screening 
devices. Obviously, that poses a significant and potential 
threat. Do you plan or contemplate the idea of doing any audits 
with respect to this, these individuals and the personnel that 
have access to the planes and to the tarmac that also could 
pose a serious risk?
    Mr. Magaw. Yes, ma'am. As we work with the airports we are 
looking at airports, every airport as a single entity, and 
trying to determine not only the front door but all around the 
back door and the fence line and the people that come through 
it, and the cargo and equipment that comes through it. It has 
to be an entire package.
    Right now, a lot of the attention is on the screeners and 
on the baggage, but as our Federal Security Directors arrive at 
the airports, which they are all over the country now, 
virtually a few each week, is that we are looking with all the 
airport personnel, the law enforcement, the airport manager, 
and taking the whole package, and is some of this being done by 
the local law enforcement, do we need more Federal personnel to 
help in that particular area, so everything from the control 
tower through the fence line, through all of the gates, through 
every entity has to be looked at, to include the passengers, 
observing as they are arriving in front of the building, 
because sometimes you can pick up unusual action that would 
cause you then to be suspicious, so we are going to take it as 
an entire package at every airport.
    Senator Snowe. And what about cargo?
    Mr. Magaw. Cargo is a huge concern. You know, we talk about 
the Pan Am 103 was a bomb in the cargo hold. None of that is 
going to go away, and so we have to close those loopholes, and 
we have to deal with each one of those areas, and at the same 
time we are doing that, we cannot ignore the other areas of 
transportation, maritime, pipelines----
    Senator Wyden. Let me announce there is a vote on the floor 
now, and gentlemen, I have some additional questions, I think 
Senator Boxer has some additional questions, certainly the 
Senator from Maine can have another round as well, and so we 
are going to adjourn.
    Senator Boxer. Mr. Chairman, because I cannot return, can I 
just make 1 minute's worth of comments as a close?
    Senator Wyden. Absolutely, and then after Senator Boxer's 1 
additional minute, we will return for some additional 
questions.
    Senator Boxer. I so appreciate it. I just want you to think 
about a few things. The video camera in the cockpit that you 
are thinking about, make that mandatory, please, because here 
is the point, it is like a rear view mirror in a car, right? I 
mean, I am driving a car. I have got to know what is going on 
behind me. These pilots, they are concentrating on their work, 
as they should be. They have no idea of what is going on back 
there.
    And frankly, you know, in the issue of a gun in the 
cockpit, I respect your decision. I hope you will look at stun 
guns, but I have to say, I can understand where the pilots are 
coming from if there is no air marshall on the plane, and so I 
want to reiterate my concern about the long-haul flights, and 
Conrad Burns and I are going to have a briefing with you, a 
private briefing with you on that point.
    So just in terms of the video camera, as you say, it is not 
expensive. It is not a new tech or high tech situation. It is a 
rear view mirror. Please do it. Do not wait. It is easy, do it. 
I will feel better. We will all feel better if we know that the 
pilot knows what is happening in his or her aircraft.
    Mr. Magaw. The ones, the aircraft that it is in now, they 
like it very, very much, so I expect us to move fairly quickly 
on that.
    Senator Boxer. It is a good thing. Thanks.
    Senator Wyden. Gentlemen, we will reconvene in no more than 
10 minutes.
    [Recess.]
    Senator Wyden. Mr. Secretary, and Mr. Magaw, the history 
and the past with respect to aviation, particularly on safety 
and security is that laws get passed, and then there is not a 
whole lot of follow-through and implementation, and that is why 
I am especially interested this morning in hearing what steps 
are going to be taken to ensure accountability at airports and 
with airlines that do not measure up in terms of aviation 
security.
    Now, in response to the earlier question I asked of you, 
Mr. Magaw, you said that you were going to do undercover 
audits. Those strike me as useful, and I would like to ask you 
next what is going to be done with that information?
    For example, if one of those undercover audits finds that 
an airport does not have adequate security, are you going to 
make a recommendation at the airport Security Director be 
fired?
    Mr. Magaw. If it is a case where it is a violation, or it 
is an oversight that should have been noted and should have 
been taken care of, clearly we expected them to take care of 
it, they would have been fired.
    Senator Wyden. You would make a public recommendation in 
that kind of case?
    Mr. Magaw. The inspection unit would go out there, whether 
it be the IG or our inspection unit, and report back to me what 
their findings were. In the case of the IG they would report 
back to Mr. Mead, and he and I confer on all of those issues 
and would consult with each other on what action should be 
taken.
    Senator Wyden. But would it get out to the public? In other 
words, I am looking for your ideas on how you are going to put 
the heat on the airports and the airlines with respect to 
making sure that these security changes are put in place. Is 
this going to be a private conversation between a handful of 
fellows, or how is it going to get followed through on?
    Mr. Magaw. Well, in terms of your specific question, if we 
fired a Federal Security Director at an airport, as I sit here, 
I am not sure whether we would make that a public announcement 
or not. I would have to confer with legal counsel and our 
personnel laws and rules and regulations, but it would be clear 
throughout the organization that you perform or you are not 
going to be in that position.
    Senator Wyden. Earlier on, when we had the debate on the 
Hollings-McCain legislation, I was very interested in actually 
grading airlines and airports with respect to how they were 
doing, and my goodness, the hubbub that idea raised, I mean, it 
was sort of like western civilization is going to end because 
the country is going to find out about these deficiencies, and 
that will be a magnet for terrorists in and of itself, and so I 
held off.
    But what are your ideas for holding airports and airlines 
accountable so that the security changes actually get put in 
place?
    Mr. Magaw. Well, you know, with the regulatory laws and 
regulations we have, we certainly on most violations have the 
ability to fine that airline. I want to see that when those 
decisions are made, that they are carried through very quickly, 
but more important than that, I want to work closely with those 
airlines, because none of them are really trying to be less 
safe, or be less concerned about security. It is a matter of 
their business of working with passengers and moving passengers 
at the same time, that that is a high priority for them. 
Security has to be a high priority, and it has to be in their 
intention span at all times, so I will work very closely with 
every airport and the entire airline industry and airline 
managers to make sure the entire package at that airport meets 
the standard.
    Senator Wyden. Well, Mr. Magaw, I think it is very 
constructive you are going to work with the airlines, but I 
will tell you a big part of the problem that I saw over the 
past, and year after year there would be this pattern, is 
basically the Government was too close with the airlines, and 
too close with the airports, and I do not want to see us go 
back to those cozy days, so work with the airlines to try to 
push them, and the airports, and push them hard, but when they 
do not measure up, then you have got to send a strong message, 
and you are indicating that with respect to the Federal 
Security Director, and that is constructive.
    Mr. Secretary, I want to ask you about this data fusion 
center that you talked about, because it seems to me that is in 
a measure an admission that the Government system of tracking 
terrorists is pretty fragmented. I mean, it is poorly 
coordinated, and pretty fragmented, and that is why we have got 
to have this data fusion center, which even by Government lingo 
sounds like a fairly exotic kind of concept.
    But tell me a little bit more why, in your view, such a 
system is needed now.
    Secretary Mineta. Well, first of all, just from my own 
experience as a military intelligence officer during the Korean 
War, in 1977, Speaker O'Neill did away with the House 
Intelligence Committee because it was roughly 46 members, and 
it was leaking like a sieve, and he reconstituted the 
Intelligence Committee in 1977, August of 1977, with seven 
members chaired by Eddie Boland and Ken Robinson from Virginia, 
and I was privileged to be one of the seven, and so I would 
like to think I have had some background in intelligence over 
the years.
    As you know, the CIA is basically foreign intelligence, and 
does not dabble in domestic. The FBI has the responsibility for 
domestic intelligence, and so when you think about all the 
information that we are getting, it really became one of, how 
do we make sure that all these points of information are 
somehow being brought together in one place, and that is why, 
as a member of the Homeland Security Council, I was suggesting 
that we have a data fusion so that we could do the mining, the 
data mining and the data dissemination of all of this 
information, whether from domestic or foreign intelligence, and 
I just felt that something like that would be helpful.
    We get it all right now, but it comes in a two-track system 
through the FBI and through the CIA channels, whereas this 
would give it the ability to have it in one place.
    Senator Wyden. Well, I will tell you, I think frankly this 
should have been done many months ago, and I sit on the Senate 
Intelligence Committee as well as serve on the Commerce 
Committee, and about 10 days ago I was able to add to the 
intelligence bill--and this is something that can be talked 
about publicly--legislation that would create a data base of 
known terrorists, known and suspected terrorists, and that 
information would be shared throughout the Government, and in 
doing it, the only thing that really seemed of special concern 
to me is, this should have been done months ago.
    And I will tell you having a data fusion center sounds like 
a constructive step as well, but there is no question in my 
mind that the current system of sharing information is 
fragmented and poorly coordinated at best, so you go full steam 
ahead in terms of setting up a better and improved system in 
this area, and you will have my full support in it, because I 
think it is right at the heart of what we are challenged with 
in this country right now.
    Let me ask one additional question at this point, then 
recognize the Senator from Texas. As you know, the airports 
prior to 9/11 indicated a variety of machines that were out 
there, were not being fully used, a variety of the security 
machines that were already in the airports that were just 
essentially sitting idle, or being used only a fraction of 
their capacity. Have you all monitored this particular issue, 
and what progress can you report as of this morning with 
respect to whether this idle machinery of the past is now on 
deck to protect the public.
    Secretary Mineta. In terms of the use of the various 
machines the CTX machines that are available, it was in the low 
twenties, and that has now increased. To the extent that we now 
have more machines on board, they are probably, in terms of 
utilization, up in the 60, 65 percent range, so that we are 
getting better use of the machines that we do have, so 
therefore that also means that there is more luggage being also 
checked by the EDS system.
    Senator Wyden. Mr. Secretary, if you came to a town hall 
meeting in Oregon, if you went to Coos Bay, Oregon, and you 
said, given all that this country is facing with respect to 
aviation security, these machines, machines that are actually 
out there now are only being used 65 percent of the time, I 
think people would be incredulous, and very, very unhappy. What 
is it going to take to get those machines fully utilized, and 
how long?
    Mr. Magaw. Senator, the problem that we have in increasing 
it much more than that is that these machines, SUV in size, and 
I know you well know that, are placed in particular airline 
areas, and what we are trying to do is get those machines used 
by other airlines where we can, but it is almost, in a lot of 
areas you almost cannot get there from here. It becomes hugely 
difficult for them to transport bags from one terminal to 
another in order to do this, so it is more the location that is 
not allowing us to get up any higher. As the Federal Security 
Directors go in, as the Federal screeners go in, as these 
machines go in, they are going to be in most cases repositioned 
where they can get much better use.
    Senator Wyden. One last question. You touched briefly on 
the issue of cargo carriers, and I would like to know about 
charter carriers with large aircraft. This is another area 
where there has been significant public concern. What progress 
has been made on this front?
    Mr. Magaw. The large charter carriers, your concern is 
correct, because there are some that are almost exactly as the 
ones that were used on 9/11, and some even larger than that, 
and they do make long hauls, and so they are full of fuel. We 
are moving very rapidly towards requiring them to do the same 
thing, virtually the same as the passenger aircraft.
    Senator Wyden. When do you think that could be put in 
place?
    Mr. Magaw. Can I get back to you on that, Senator?
    Senator Wyden. Do you think that can be in place within 90 
days? Do you think you can make the decision within 90 days?
    Mr. Magaw. I believe we can, yes, sir.
    Senator Wyden. The Senator from Texas.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman. I 
appreciate your continuing the hearing, and I am sorry that I 
was late, and I hope that my line of questioning will not be 
duplicative.
    I just came in this morning from Dallas, where I attended 
the Airport Executives National meeting where Mr. Magaw also 
spoke, and of course security was the number 1 issue on their 
agenda. Mr. Magaw, because you have just met with the airport 
executives, and I know some of their concerns, let me start out 
by saying that on April 26 you said that within 2 to 4 weeks 
Raytheon would visit all 426 airports to determine what mix of 
equipment would fit each airport's needs to meet the December 
31 deadline for checking screened baggage. Where are you in 
that process?
    Mr. Magaw. The statement that I made then proved to be an 
inaccurate statement, because in the meantime what we decided 
to do was to do it differently. Rather than spend the funds to 
send teams to virtually every airport in the country, at least 
at that time to get the equipment ordered by taking a sampling 
of 25 of the various size airports. We were able to get what we 
feel is a proper number and balance of those that are ordered.
    Within the next 6 weeks, they will have a person there 
working specifically with them. Some of them are arriving at 
different airports today. I think today DFW has theirs in 
today.
    So my statement in terms of the time was off, but the 
machines in terms of order, in terms of the number, a they are 
being built, they will be deciding with the airports where they 
are placed. Places like DFW, a number of other airports who are 
in a real bind in terms of space and moving walls and things, 
we are trying to address first, but as you can imagine, it is a 
huge undertaking, and we are trying to make sure that as we do 
it there is a plan that agrees--those people, we are going to 
join their family, not vice versa, and so they already have a 
lot of plans at DFW, and others have terrific plans to show 
what they do, what they cannot do, and how it can be worked 
out, and so we will get that done as quickly as we can.
    Senator Hutchison. Well, one of the concerns that the 
airport executives expressed is that they do not see enough of 
a plan on what the mix would be, and they know that part of the 
mix is going to be manual screening, and they do not see how 
they would be able to get from you the mix requirement and the 
manpower to do a mix by the end of the year, so can you 
reassure them that we will have plans in place for each 
individual airport, and a strategy to meet this year-end 
deadline?
    Mr. Magaw. Every airport is reporting in to us. There are a 
few airports around the country that figure that in moving 
walls, doing the construction that they have to do, they are 
going to need a specific mix, and even with that specific mix 
there is a concern as to whether they can meet the deadline, so 
what we are trying to do is identify those particular airports 
that need a little bit more time in trying to address those 
issues first, so we do have more time.
    Secretary Mineta. Senator, if I might interject on that, 
that is really very, very dependent on the ability to get our 
$4.4 billion, and the President's request of $4.4 billion in 
the supplemental has been short-changed by the House 
appropriations bill, and so to the extent we have been 
shortchanged--not only the $400 million, but the additional 
$542 million that they have now earmarked for other purposes, 
so that we have been shortchanged, we will not be able to come 
up with the machines, or we will get the machines. We will not 
have the people to be able to adequately staff the passenger 
screening and the baggage screening responsibilities that we 
have under the law.
    Senator Hutchison. Will the baggage screeners be temporary 
until you have the equipment for checked bags?
    Secretary Mineta. In some instances, we are gearing up for 
the baggage screeners. Hopefully, as we get to better 
equipment, that we will be able to back off on the number of 
screeners, but we do need that initial ramp-up, and then as we 
get our experience down, then we can back off of that number, 
but we do have to ramp up, and the number we use for fiscal 
year 2002 in terms of full-time equivalents is 51,232.
    Senator Hutchison. But break that out between the ones who 
would be permanent, screening people going into the terminal, 
versus checked baggage screeners.
    Secretary Mineta. Okay. I will have to get that for the 
record.
    Senator Hutchison. I assume the checked baggage screeners 
are going to be temporary until you have the full equipment for 
checked baggage screening.
    Secretary Mineta. Right.
    Mr. Magaw. But you will still have to have screeners, 
Senator. This equipment does not work by itself. These 
screeners have to look at the machine, read the machine, what 
it says.
    Senator Hutchison. That is correct, but the part that you 
are using as backup, because we do not have the equipment, 
should be a large number of manual screeners making up for the 
fact that we do not have the equipment that could then be 
temporary in nature and let go, or put into another part of the 
workforce, but the 51,000 it seems to me should be a more 
permanent force, and then you have to ramp up, but it would be 
temporary, and I would like to know how many of the 51,000 
would be more temporary.
    Secretary Mineta. We will get that broken out for you in 
terms of the total number between the passenger screeners and 
baggage screeners.
    Senator Hutchison. I understand you are still going to have 
to have someone working the equipment, but it would be one or 
two people, as opposed to people actually doing----
    Secretary Mineta. It will not vary that much. It will not 
vary that much, but we will get that broken out for you.
    Senator Hutchison. Well, common sense would say that it is 
going to take more people to back up the lack of equipment than 
it will take to operate a piece of machinery.
    Mr. Magaw. At these checkpoints, a lot of the checkpoints 
are just before you get on the aircraft. Some of that will be 
reduced also, so there will be some numbers less.
    Senator Hutchison. By the way, since you mentioned the 
checking at the gate, has that brought forth anything that was 
not caught at the first stage, going into the terminal?
    Mr. Magaw. Yes. I think if we go much farther, we should do 
it in classified briefing, but the answer is yes, and once the 
Federal force is in place and functioning, I want to monitor 
that some more. If it goes away, which I believe it will, then 
we will be able to reduce numbers we were talking about before.
    Senator Hutchison. Because it looks redundant, but if you 
have actually had catches, because it is a backup, then it 
looks as if that were a good decision.
    Speaking of that, I had mentioned before that as soon as 
the major job of securing the terminal is done, and you do away 
with long lines, and things are smooth, that I would hope you 
would look at allowing nontraveling people who are accompanying 
passengers to go into the terminal, both for passenger 
convenience and for the retail people who have made an 
investment in the airport retail shops, who have certainly lost 
business as a result of the smaller number of people going 
through. Is that on your radar screen?
    Mr. Magaw. Yes, it is on our radar screen, and just as you 
have stated it, once the new procedure Federal force gets in 
there and is functioning, moving lines, not having some of the 
problems we are having today, then we would look at each 
airport. Some airports do not survive because of that, and 
others do not have the problems, so we are certainly going to 
look at that.
    Senator Hutchison. Mr. Chairman, or Mr. Secretary, the last 
question I have once again regards the experience of some 
airports, who have been wanting to invest in the equipment to 
screen checked baggage, but they have not gotten clearance from 
you. I think a good part of it is also that you are looking at 
new and better technology, perhaps, to replace or supplement 
these bigger, more unwieldy machines.
    What do you think the timetable would be for getting the 
next generation of technology, which presumably would be more 
accurate and hopefully less cumbersome for these airports. Many 
airports are not configured for this type of machine, so maybe 
they would not have to make a major investment in something 
that is only going to last a few years?
    Mr. Magaw. In terms of looking throughout the country, and 
virtually throughout the world, and talking to people who are 
technology experts from MIT and other organizations, we do not 
see anything that is sitting out there now. Their belief is, my 
belief because of talking through the issue is that when we put 
research money out there, and there is now a demand for that 
equipment--you see, there has not been a demand up until now--
that the entrepreneurialship will take place, and we will see 
some technology, but most of the experts that I have talked to 
figure that it is at least 3 or 4 years down the road. It could 
be available in 2-1/2 or 3 years, and probably 4 years before 
it is put in airports.
    Senator Hutchison. Do you foresee, then, a system with the 
variety of trace detection and manual screening backing up 
these bigger pieces of equipment to really be a fix that would 
go through, rather than making a huge investment in a machine 
that is going to last 3 or 4 years, maybe doing the backup 
piecemeal system until the better equipment is going to be a 
more sound investment?
    Mr. Magaw. We are thinking exactly the way you are in each 
airport, what makes sense in terms of the things you are 
talking about, and in terms of the long run for each airport. 
This equipment is going to be much better if it ends up in 
line. That is, after you check it, and they turn and put it on 
that baggage compartment, that it goes down into the basement, 
or another level of the airport, and that is where, in the long 
run, the in-line screening will take place and will work much, 
much better.
    I was meeting yesterday with the minister of Britain. It 
took them 11 years after Pan Am 103 to get that done, and it is 
working very well for them, but now they are facing the huge 
change of the update in equipment, and so we are trying to look 
at all those things as we move forward.
    Senator Wyden. Let me announce to the Senator that the 
Secretary has got to go in just a minute or two. I have one 
additional question.
    Senator Hutchison. I am finished, thank you, Mr. Chairman. 
Let me just say that I really appreciate your coming here. I 
hope you will continue to communicate with Congress as we go 
down the road on your problems on the deadlines and on the 
appropriations issues. Let us try to be helpful so that we can 
meet these deadlines and assure the traveling public that they 
are safe.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague. One question for you, 
Mr. Secretary, and then we will let you go, then I have one 
additional question for you, Mr. Magaw.
    Mr. Secretary, were there any concerns specific to 
aviation, concerns that you can discuss in a public forum like 
this, that led to the Vice President's comments on Sunday?
    Secretary Mineta. Not really, no. I am not aware of 
anything that would have prompted that.
    Senator Wyden. So no new developments with respect to 
aviation security that you are aware of?
    Secretary Mineta. That is correct.
    Senator Wyden. Mr. Secretary, you have been very patient. 
We will excuse you at this time.
    Secretary Mineta. Thank you, Senator.
    Senator Wyden. One question for you, Mr. Magaw, if I could. 
When a warning goes out, what is done to monitor whether the 
airlines respond appropriately?
    Mr. Magaw. In each of the airports throughout the country 
there used to be FAA regulatory inspectors. Now they are TSA 
regulatory inspectors. There is well over 900 or 1,000 of those 
throughout the field. They then are responsible not only to 
make sure that they got the advisory, but also talking with 
them about what it is that they are going to do about it, and 
each of the airline security personnel in their main 
headquarters discusses it with their personnel in the field. 
There clearly needs to be more coordination with that, and you 
will see it once our Federal Security Directors get there, 
because that will be one of their key daily responsibilities.
    Senator Wyden. What are the shortcomings in the system now, 
if you feel there needs to be more coordination? Again, I am 
looking for those kinds of areas where you can really ensure 
accountability, and what I want to know is, when a warning goes 
out, that something is really done to make sure that the 
airlines carry it out appropriately, and I appreciate your 
answer. You have said it is going to be better coordinated. 
What seems to be the problem now?
    Mr. Magaw. Well, I think right now what you have is the 
notice going out to the airlines, and then leaving it to the 
airlines as to what they do within their own system. What will 
change is that when they go out, that Federal Security Director 
will be responsible in each of the airports to talk to those 
who service that airport and discuss the issues with them as to 
what they are doing, and also look at what we are doing there 
in terms of security. What do we have to change with that 
alert?
    Senator Wyden. Let me just wrap up by way of saying, Mr. 
Magaw, I started off 3 hours ago talking about that picture of 
Mohammed Atta, the one that is just sort of etched in the minds 
of the American people permanently now, as he breezed through 
that security checkpoint in Maine. After the Vice President's 
warning on Sunday I got calls, and people asked yesterday, is 
it safe to fly now, should I be flying, should I just stay 
home?
    What I have said is that we have got a lot of work to do. I 
think that people like you are putting in a lot of hours, and 
making a very sincere and very dedicated effort to get this job 
done, but I think there are structural and organizational 
problems here that are very deep. They are very, very deep, and 
as highlighted to me on why we would need a data fusion system 
now, I mean, why was that not in place October 15? Why wasn't 
the legislation that I added to the Intelligence Committee bill 
to set up a terrorist tracking system, why wasn't that in place 
on October 15?
    So what we need are the officials like you and Secretary 
Mineta and Mr. Ridge to basically cut through some of this 
bureaucratic paralysis--I do not know any other way to describe 
it--that keeps these changes from being put in place, and that 
is what the American people want, that is what they deserve. We 
know you are sincere in the views you express today, but you 
have got to step up the pressure. You have got to step up the 
pressure because people want results, and they want changes, 
and they want them quickly.
    So unless you have anything to add further, we will excuse 
you at this time. Is there anything you would like to add?
    Mr. Magaw. No, sir. Thank you.
    Senator Wyden. The Committee is adjourned.
    [Whereupon, at 12:00 noon, the Committee adjourned.]
                            A P P E N D I X

             Prepared Statement of John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Secretary Mineta and Undersecretary Magaw, welcome.
    Two months ago, Mr. Magaw and Ken Mead came before this Committee 
to update us on implementation of the Aviation and Transportation 
Security Act (ATSA). By and large, I think most Members of this 
Committee walked away from that hearing impressed with the progress 
that the Transportation Security Administration (TSA) has made under 
difficult circumstances.
    And the difficulty of your jobs should not be underestimated. When 
we passed ATSA, we demanded no less than fundamental changes in every 
aspect of aviation security. We have given you extraordinarily tight 
deadlines to (among others): check every bag, federalize screeners, and 
install explosive detection equipment at every airport. I know that all 
of you have been working around the clock to accomplish these goals 
prior to the deadlines we set. All of us on the Committee appreciate 
the efforts you've made.
    That having been said, I want to point out that many of us on the 
Committee have real concerns with the TSA and its implementation of the 
Aviation and Transportation Security Act. Indeed, you've likely already 
heard some of these concerns before other congressional committees. My 
goal for today's hearing is for us to have a good discussion about 
these concerns so that we can, if necessary, make any necessary mid-
course adjustments.
    Specifically, I would like to discuss four issues: ensuring a 
single level of security for all airports; developing technology to 
detect and track terrorists; information sharing between agencies; and, 
finally, communication with Congress.
One Level of Security for All Airports
    You recently announced that you intend to meet the December 31 
deadline for installing Explosive Detection Systems (EDS) at all 
airports by using a two-pronged approach. For larger airports, you plan 
to use a combination of the larger EDS machines and trace detection--
technology that collects tiny samples of air or material, through the 
swiping of clothing or baggage, from which the presence of explosives 
can be detected. But, for smaller airports, you plan to use trace 
detection alone--at least until smaller, less expensive EDS machines 
can be developed. I understand that you hope to have developed and 
deployed such smaller machines in two years.
    I am, needless to say, concerned with any plan that appears to 
create a two-tiered system of security. Smaller airports deserve the 
same level of security as larger airports. Moreover, considerations of 
national security demand a single, high level of security for all 
airports. At the same time, I understand there simply may not be enough 
larger machines available by December 31. And I also understand that 
larger machines may be impractical to deploy at some smaller airports. 
Finally, I am told that, at least under some scenarios, trace detection 
can provide a comparable level of security as the larger machines.
    Given the above, a temporary deployment of trace detection with 
other procedures at smaller airports might be acceptable. But only if 
there is an actual commitment to deploy next-generation EDS to smaller 
airports, not just a vague promise to do so. I have been told that you 
`hope and expect' these machines to be available in two years. That is 
not good enough. We need to know more about how you plan to get EDS 
machines to all airports.
Technology for Detecting and Tracking Terrorists
    Among ATSA's many mandates and deadlines are a series of 
requirements to deploy next-generation technologies to detect potential 
terrorists. Although many of these do not have specific deadlines, they 
are among the most important of ATSA's requirements, and must be 
treated as such.
    I understand that efforts are underway to modernize the Computer 
Assisted Passenger Prescreening System (CAPPS), so that every 
passenger's name will be automatically checked against a series of law 
enforcement and intelligence databases. I also understand that efforts 
are underway to use biometric technologies to verify that pilots, 
flight crews, and law enforcement personnel are who they say they are.
    These are important and worthwhile endeavors. But they leave a 
potential hole in the system--we have no way of knowing that airline 
passengers are who they say they are. Checking names against databases 
is good, but not if passengers are using false identification, as did a 
number of the September 11 terrorists. We need to develop and deploy 
authentication technologies, including biometrics, so that we know who 
is getting on board aircraft operating in the United States.
    This will, of course, make air travel more secure. But, just as 
importantly, it will enable law enforcement authorities to apprehend 
those who would use our aviation system to travel to locations where 
they plan to commit non-aviation-related acts of terrorism. The fact 
is, foreign terrorists come to the United States from somewhere else, 
and most do so through air travel. We must use the technological tools 
available to us to find these people before they do us harm.
Information Sharing
    There have been a number of disclosures this week about the 
Administration's collection and distribution of security information. A 
number of important questions will be asked about what you knew, and 
when, and how you and your staff made the decisions not to distribution 
information you received. I think it appropriate that these questions 
be asked, not to assign blame or find a scapegoat, but to help ensure 
that the events of September 11 are not repeated.
    But the disclosures that have come to light this week raise 
larger--and, to me, more fundamental--questions about how sensitive 
information is shared among the various intelligence, law enforcement, 
and other entities in the government. As a member of the Senate 
Intelligence Committee, this issue has been a priority of mine, because 
it is clear to me after September 11 that we all must do better. I'm 
eager to hear your perspective on, and experience with, these issues.
Communication with Congress
    My final concern is perhaps the most basic--I'd like to see some 
improvement in communication between the Department of Transportation, 
the Transportation Security Agency, and the Congress. We want to help 
you do your job. But, at times, we have not been fully informed about 
your activities. We have also given you, and are willing to give you, 
vast resources to ensure aviation security. And we have a 
responsibility to our constituents and the American people to make sure 
that you are doing the job. Just as we are here to help you, we need 
your help to enable us to fulfill our responsibilities.
    Again, Secretary Mineta and Undersecretary Magaw, I want to 
emphasize that we on the Committee really do appreciate the difficulty 
of the jobs we have assigned you. You are working around the clock to 
do them, and we appreciate it. I and my colleagues on the Committee 
have raised a number of concerns on our minds. But we share with you a 
desire, and indeed, a determination, to see you succeed. I look forward 
to helping you do so.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to
                            Norman Y. Mineta
EDS/Trace Detection
    Under the law, TSA is required to install Explosive Detection 
Systems (EDS) at all 429 commercial airports. You can use alternative 
screening methods, such as Explosive Trace Detection, until EDSs are 
deployed.
    Secretary Mineta has announced that TSA will deploy 1100 EDS 
machines and about 5,000 trace machines nationwide. Larger airports 
will get both systems, and smaller ones will get only trace for now. 
The DOT JO originally estimated, in testimony before the Committee, 
that it would take more than 2,000 EDSs nationwide to fully deploy them 
at all 429 airports. At the time, the production rates for the two 
companies--InVision and L-3--were not capable of manufacturing all of 
the equipment by the end of the year.
    One major airport did a cost analysis comparing EDS with trace and 
determined that trace, in the long run, would cost substantially more 
(operating costs primarily). The airport is in the middle of a major 
construction project and can put in the EDSs, if DOT/TSA made a 
decision. They were preparing to spend $193 million in airport money to 
put in the EDSs.
    DOT/TSA is undertaking a research and development effort, working 
with several large companies, to develop better, cheaper, and lighter 
EDS machines. The machines in many cases may require substantial 
redesign of airports prior to installation. The machines cost about 
$700,000 per machine, and installation, according to the DOT 10, runs 
about $350,000 per machine. The EDS has a bag throughput of 125 per 
hour. Multiple machines are needed for large airports.
    According to most experts, when an EDS machine alarms--a picture is 
presented and the potential item is highlighted--Trace can analyze the 
hem. Both types of machines have advantages and disadvantages (e.g., 
for trace the outside needs to be swabbed, and the inside opened for a 
more thorough check).
    Question. What is the next step and when does TSA expect to meet 
the 100 percent EDS target?
    Answer. The next step is full deployment and installation of 
equipment and the hiring and training of screeners. TSA will soon award 
a contract to a major firm for assessment of airport facilities, 
submission of design plans, and needed construction. At this time, TSA 
expects to meet the December 31, 2002, target date.

    Question. Trace has traditionally been used at passenger 
checkpoints, or in combination with EDS (the Europeans use this 
configuration). Why did you decide to use it as a stand alone system 
now?
    Answer. Foremost, with appropriate protocols BID provides 
explosives detection capability that is comparable to EDS. Given EDS 
availability and airport space constraints, ETD became the natural 
option.

    Question. How much are you prepared to spend on research, and what 
companies will be involved?
    Answer. TSA has allocated $50 million to research and development 
of next-generation explosives detection equipment. Our approach will be 
to establish a consortium of companies and international partners in 
coordination with academia and national laboratories to bring the best 
minds to bear on this effort.

    Question. Why has it taken so long for the TSA to get the ball 
rolling on EDS installation?
    Answer. TSA took swift action to plan and implement the EDS 
requirements of ATSA. Contracts were awarded to original equipment 
manufacturers InVision in February and L-3 Communications in April, and 
another major contract will soon be awarded.

    Question. Do you have any idea when those Federal officers will 
arrive to relieve the local LEOs?
    Answer. The TSA Police Officers will begin arriving in October. Our 
first training class is scheduled to begin at the Federal Law 
Enforcement Training Center on August 12 and graduate in early October. 
We have a recruit, select, hire, train, deployment schedule for each 
airport which runs through Fiscal Year 2003.

    Question. If you can give them an idea of timing, it may present 
different options--for example, adding more part-time officers--if they 
know that the responsibility will last 6 months or 2 years. Have you 
reimbursed the local airports for their security costs?
    Answer. Federal Security Directors, who will be located at airports 
across the country, will coordinate with local law enforcement agencies 
to implement TSA's deployment schedule. TSA is not reimbursing airports 
directly for their security costs but has been reimbursing local law 
enforcement agencies for state and local law enforcement services and 
will continue this practice.
TSA Budget Issues/Funding
    Current estimates are that the new passenger security fee will only 
generate revenues of $1 billion, which is $5.8 billion short of the 
agency's current budgetary requirements.
    Question. What are the personnel costs associated with deploying 
the EDS and trace equipment? How does that breakdown for each type of 
equipment?
    Answer. In order to effectively staff an explosives detection 
machine combined with the trace equipment, approximately seven staff 
will be required. For stand alone explosive trace equipment, TSA 
estimates that approximately five will be required. Personnel costs 
associated with deploying the equipment include salaries and benefits 
as well as recruitment, training, and uniform costs.

    Question. Have the carriers been reimbursed in full for their costs 
to date? If not, when is reimbursement expected? Will reimbursement to 
carriers include leasing costs for space at the airports? Which costs 
will the carriers be required to include in their 2000 cost data that 
will be used to determine the amount of the Security Infrastructure Fee 
that the carriers must pay?
    Answer. TSA has entered into reimbursable agreements with carriers 
where their employees are providing passenger screener functions in 
advance of a Federal screener workforce. In addition, TSA has assumed 
maintenance costs for screening equipment owned by the airlines but 
provided to TSA under no-cost leases. FAA is still working on 
distributing funding made available for the hardening of cockpit doors. 
TSA continues to work with the carriers regarding any issues with 
reimbursement. Costs that are to be included in the Security 
Infrastructure Fee are itemized below, from Appendix A for 49 CFR Part 
1511. *
---------------------------------------------------------------------------
    * This form will be available electronically from the Department of 
Transportation's website at www.dot.gov.

    A) Screening Personnel and Supervisors. --These are costs that the 
air carrier incurred directly. Includes costs incurred for air carrier 
personnel salaries and benefits, equipment owned, leased or rented 
---------------------------------------------------------------------------
directly by that air carrier and any other costs directly incurred:

      1. Checkpoint Screening Personnel (Salary, benefits, overtime, 
retirement and other costs of checkpoint screening personnel.)

      2. Exit Lane Monitors (Salary, benefits, overtime, retirement and 
other costs of exit lane monitors.)

      3. Cargo Screeners (Salary, benefits, overtime, retirement and 
other costs of cargo screeners.)

      4. Checked Baggage Screeners (Salary, benefits, overtime, 
retirement and other costs of checked baggage screeners.)

      5. Baggage Runners (Salary, benefits, overtime, retirement and 
other costs of all baggage runners who move property such as baggage to 
and from screening areas.)

      6. Supervisory Personnel (Salary, benefits, overtime, retirement 
and other costs of all supervisory personnel, including Checkpoint 
Screening Supervisors.)

      7. Non-Labor Costs (All associated expensed non-labor costs 
including computers, communications equipment, time management systems, 
supplies, parking, identification badging, furniture, fixtures, and 
travel.)

      8. Background Checks (All costs of performing required background 
investigations on all screening personnel and supervisors. Screening 
personnel and supervisors includes checkpoint screening personnel, exit 
lane monitors, cargo screeners, checked baggage screeners, baggage 
runners, and their supervisors.)

      9. Training and Testing (All costs incurred for the training and 
testing of all screening personnel and supervisors, including initial, 
recurrent and remedial training. Includes any computer-based training 
and the development of training programs for the screening of persons 
and property as well as any travel, room and board, and all other such 
expenses related to training.)

      10. Training Records (The costs of implementing and maintaining 
training records for all screening personnel and supervisors.)

      11. Evaluations (The costs of completing evaluations for all 
screening personnel and supervisors.)

      12. Drug and Alcohol Testing and Treatment (All costs for drug 
and alcohol testing as well as any associated counseling and/or 
treatment for all screening personnel and supervisors.)

      13. Uniforms (All costs of renting, purchasing, maintaining, and/
or cleaning of uniforms and any related equipment such as flashlights 
and batons for all screening personnel and supervisors.)

      14. Canines (All costs incurred by air carriers for the use of 
canines and their handlers used for the screening of persons and 
property.)

      15. Cost of Obtaining Security Clearances (All costs associated 
with obtaining security clearances for personnel relating to the 
screening of persons and property.)

    B) Equipment and Procedures. --These are costs that the air carrier 
incurred through contracts with security firms. Includes personnel, 
equipment and other costs incurred through contracts with third party 
security companies:

      16. Screening Equipment Installation (All costs associated with 
the purchase, installation, and testing of all screening equipment. In 
instances where the equipment is capitalized, provide the depreciation 
expense in lieu of costs associated with purchase, installation, and 
final acceptance testing. This includes such equipment as Metal 
Detection Devices, Hand Wands, X-ray screening machines, Explosives 
Trace Detection Devices, Explosives Detection Systems, or any other 
such similar technologies. Includes any costs incurred or depreciation 
costs recognized in calendar year 2000 for the modification and/or 
construction of any facility needed to accommodate screening, including 
architecture and engineering. Also includes the costs of any 
refurbishment and/or modernization of the equipment.)

      17. Operating, Operational Maintenance and Testing of Installed 
Screening Equipment (Costs of operating, maintaining, and calibrating 
installed screening equipment. This includes such equipment as Metal 
Detection Devices, Hand Wands, X-ray screening machines, Explosives 
Trace Detection Devices, Explosives Detection Systems, or any other 
such similar technologies. Includes such costs as test objects and X-
ray radiation surveys, electricity costs and maintenance contract costs 
incurred for the operations of such equipment.)

      18. Maintenance of Sterile Areas (Costs of maintaining integrity 
of sterile areas. Includes costs of opening sterile areas, emergency 
evacuations of sterile areas, and re-screenings not included 
elsewhere.)

      19. Checkpoint Signs and Related Equipment (The cost of purchase 
or rent, installation, testing, and maintenance of checkpoint signs, 
barriers, lane markers, and exit lane doors.)

      20. Exceptional Screening for Persons and Property (Any 
additional costs for special screening such as for disabled passengers, 
VIP passengers, classified and/or high value items.)

      21. Security Company Contracts (All security company contract 
costs for the screening of persons and property that cannot be detailed 
into any other cost category.)

    C) Property and Plant. --These are costs that the air carrier 
incurred through other means. Includes costs incurred through air 
carrier security consortiums:

      22. Real Estate (All direct costs for the real estate utilized 
for the screening of persons and property. Includes space at airports 
for the performance of these functions, as well as such space used for 
break rooms, private screening rooms, storages space, training moms, 
and office space. Also includes appropriate space for the oversight of 
the screening functions outside of airports such as in headquarters or 
regional offices.)

      23. Utilities (All costs for utilities used for screening. 
Includes electricity, heating/ventilation/cooling, and 
telecommunications costs not elsewhere specified.)

    D) Program Management and Contract Oversight:

      24. Ground Security Coordinators (All costs incurred for the 
Ground Security Coordinator's oversight of the screening functions. 
Includes personnel salaries, benefits, retirement, training, and non-
labor costs.)

      25. Security Program Management (All air carrier head office, 
regional, or airport specific costs associated with the administration 
and oversight of screening not elsewhere specified. Includes personnel 
salaries, benefits, retirement, training, and non-labor costs.)

      26. Security Contract Administration and Oversight (All costs 
associated with the administration and oversight of screening 
contracts. Includes personnel, benefits, retirement, training, and non-
labor costs.)

      27. Screener/Supervisor Background Check Audits (All costs not 
elsewhere specified for background audit checks for all screeners and 
supervisors.)

      28. Legal Support (All legal support costs incurred during 
calendar year 2000 relating to aviation security screening. Includes 
legal assistance for the implementation and execution of security 
screening contracts.)

      29. Accounting Support (All costs for accounting and financial 
services incurred for the support of the screening functions.)

      30. Other Administrative Support (Includes all labor and non-
labor costs for such items as human resource administration, clerical 
assistance, information technology, and other support functions related 
to screening.)

      31. Insurance (All insurance costs relating to screening. 
Includes worker's compensation and general liability insurance.)

      32. Law Enforcement Costs (All costs incurred by the air carriers 
for law enforcement personnel costs that were reimbursed by the air 
carriers for services performed in connection with the screening of 
persons and property.)

      33. Recruitment Expenses (All costs associated with the 
recruitment of screening personnel and supervisors. Includes signing 
bonuses, travel, and other recruitment expenses.)

    E) Security Consortium Costs:

      34. Management Fees for Oversight of Consortium Contracts (Any 
costs incurred for fees charged by other organizations for the 
management of contracts for the screening of persons and property.)

    F) Other:

      35. Other (Any costs incurred not elsewhere specified during 
calendar year 2000 for the screening of passengers and property. These 
costs should be itemized on a separate sheet. Includes any fines or 
monetary penalties incurred for screening as well as any profit/bonuses 
paid to contractors for screening services not included elsewhere on 
the form.)
    Currently, the carriers are also performing catering screening. 
Congress intended for the TSA to assume this responsibility but they 
have not.

    Question. Does TSA intend to provide federal employees to perform 
this function? If so, when will they be put in place? If not, will they 
continue to use the carriers to screen catering? Will the carriers be 
reimbursed for these costs? If so, when?
    Answer. The Aviation and Transportation Security Act (ATSA) does 
not require TSA to directly perform or pay for the screening of 
catering supplies prior to their placement aboard aircraft. ATSA does 
require that security measures be in place for persons and property 
entering secured areas of airports and requires that TSA establish 
procedures to ensure the safety and integrity of catering and passenger 
amenities. TSA is authorized and responsible to determine, through 
issuance of orders, regulations, or security directives or through 
approval of security programs, the entities that are required to carry 
out these requirements at non-Federal expense.
    At this time, air carriers are responsible to ensure required 
security procedures are implemented for catering services. Currently, 
we are working on establishing uniform requirements for catering 
security in order to assure consistency across the commercial aviation 
system. Costs to carry out these measures rest with the parties made 
responsible for these measures, not with the TSA.
    TSA also issued a security directive to airport authorities 
requiring the use of Local Law Enforcement Officers to replace National 
Guard troops at airport security screening checkpoints by May 10, 2002, 
and on May 31, 2002, all National Guard troops will leave their 
stations at the airports.

    Question. What is the deployment plan/timeline for federal TSA 
officers to replace the LEOs? how many TSA armed law enforcement 
officers will be hired? Will the $73 million requested in supplemental 
funding for FY 2002 fully cover the agreements negotiated with airports 
for reimbursement of LEOs? Under the negotiated agreements, how much 
funding will the TSA need for LEO reimbursement in FY 2003?
    Answer. The deployment plan for TSA Officers includes a schedule to 
select, hire, train, and deploy 3000 personnel through Fiscal Year 
2003. The deployment at each airport will be coordinated by the Federal 
Security Director with local authorities in order to fully utilize all 
available law enforcement resources to enhance overall security. We 
believe that the requested level of supplemental appropriations would 
fully cover the negotiated agreements for FY 2002. For FY 2003, TSA 
will need and has requested $264 million to support negotiated 
agreements for LEO reimbursement.
    Many local governments have expressed their concern about the 
liability implications of placing local law enforcement at airport 
security checkpoints.

    Question. Will the Administration offer local governments liability 
protection for officers acting in a federal capacity?
    Answer. We are coordinating Special Deputation requests through the 
U.S. Marshals Service when a local law enforcement agency requests such 
coverage. Only 4 police departments out of 429 have requested the 
coverage. Most agencies do not consider the coverage necessary as they 
were already responding to incidents at airports prior to posting at 
the checkpoints. In the event a Federal violation occurred, and no 
local or state laws covered the act, they detained the suspect until a 
Federal law enforcement officer arrived or guidance was received from a 
Federal prosecutor.

    Question. Has TSA negotiated liability coverage for any of the 429 
commercial airports for LEOs?
    Answer. No. However, some airports have increased their liability 
insurance coverage and added the costs as overhead to their agreements.

    Question. Does TSA have the authority to negotiate liability 
protections for LEOs?
    Answer. No, we coordinate Special Deputation through the U.S. 
Marshals Service.

    Question. Can local officers be designated as federal officers in 
the same manner that the FBI or DEA operates when they use LEOs for 
conducting law enforcement activities?
    Answer. Yes, as noted, TSA coordinates Special Deputation requests 
through the U.S. Marshals Service.

    Question. Would that designation provide the officers liability 
protection?
    Answer. It provides the same protection as that provided to Federal 
employees under the Federal Tort Claims Act when they are properly 
exercising Federal authority or acting under the direct supervision or 
control of a Federal official within the scope of employment as defined 
by the memorandum of agreement between TSA and the local authority.

    Question. Is the TSA considering alternative deployment plans for 
LEOs at Category I and II airports?
    Answer. Alternative deployment plans will depend on the total 
number of LEOs authorized for TSA and costs associated with local law 
enforcement officers at individual airports.

    Question. Will the option of response time be extended to all 
airports?
    Answer. At the present time, current security directives must be 
complied with. This requires law enforcement officers at the 
checkpoints.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Max Cleland to 
                            Norman Y. Mineta
    Question. The TSA's process for replacing airport screeners has met 
with some criticism for being inflated, costly, and confusing. For 
example, originally the agency expected to hire about 30,000 new 
screeners for the nation's 429 airports. Now I understand that number 
is closer to 70,000. Can you please tell the Committee why the number 
of screeners has more than doubled? Do you believe doubling the number 
of screeners will impede the TSA from meeting the November 19 deadline 
for federalizing the security workforce?
    Answer. The requirements to perform passenger screening have not 
changed. TSA requires screening personnel at both passenger checkpoints 
and checked baggage screening locations. TSA requires 33,000 screeners 
and supervisors to staff the checkpoints for screening passengers to 
meet the November 19th deadline. Additionally, in order to meet the 
December 31st deadline to screen 100 percent of checked baggage, a 
workforce of 22,000 baggage screeners and supervisors is required. The 
total staff requested in 2003 for TSA is 67,200. In addition to the 
passenger and baggage screening workforce, this includes federal law 
enforcement officers, support staff; and staff for TSA's maritime and 
land intelligence, and research and development programs.

    Question. Can you justify why the Senate shouldn't follow the lead 
of the House Appropriations Committee and cap the number of security 
employees that can be hired at the TSA?
    Answer. TSA needs as much flexibility as possible with its 
workforce in order to meet the ambitious deadlines set forth in ATSA 
and will continue to work with Congress to ensure that resources, such 
as personnel, are used efficiently.

    TSA has thoroughly examined and assessed the personnel requirements 
to successfully meet the mandates contained in ATSA for the 
federalization of all passenger and baggage screening. At this time, 
TSA expects to hire roughly 50,000 employees to perform the screening 
function. TSA also intends to hire several thousand law enforcement 
officers and federal air marshals (FAM) to effectively enforce the 
numerous aviation security laws and regulations. Any reduction in the 
anticipated number of employees TSA can hire could inhibit our ability 
to meet the statutory requirements in ATSA.
    Question. On a related issue, there has been confusion over the 
amount of money the TSA plans to spend on salaries for screeners and 
checkpoint guards and the fact that these salaries, at least at one 
point in time, appeared to change on a daily basis. Could you please 
clarify for us the TSA's salary scale for both screeners and guards? 
For managers and supervisors?
    Answer. Please find attached TSA's salary levels.

       Transportation Security Administration--Salary Levels for TSA
                                Employees
------------------------------------------------------------------------
                                              Salary Range \2\
     Position       Pay Band \1\  --------------------------------------
                                     Minimum      Midpoint     Maximum
------------------------------------------------------------------------
                   Passenger and Baggage Screeners \3\
------------------------------------------------------------------------
Screeners          D                   $23,600      $29,500      $35,400
                   E                   $27,100      $33,900      $40,700
Lead Screeners     F                   $31,100      $38,900      $46,700
Screener           E                   $27,100      $33,900      $40,700
 Supervisors
                   F                   $31,000      $38,900      $46,700
                   G                   $36,400      $46,400      $56,400
------------------------------------------------------------------------
                         TSA Law Enforcement \4\
------------------------------------------------------------------------
Uniformed          F                   $31,100      $38,900      $46,700
 Officers
                   G                   $36,400      $46,400      $56,400
Federal Air        F                   $31,100      $38,900      $46,700
 Marshals and
 Criminal
 Investigators
                   G                   $36,400      $46,400      $56,400
                   H                   $44,400      $56,600      $68,800
                   I                   $54,100      $69,000      $83,900
Law Enforcement    G                   $36,400      $46,400      $56,400
 Supervisors
                   H                   $44,400      $56,600      $68,800
                   I                   $54,100      $69,000      $83,900
Law Enforcement    J                   $66,000      $84,200     $102,300
 Management
                   K                   $78,900     $100,600     $122,300
------------------------------------------------------------------------
                     Federal Security Directors \5\
------------------------------------------------------------------------
Small Airports     H                   $44,400      $56,600      $68,800
                   I                   $54,100      $69,000      $83,900
Medium Airports    J                   $66,000      $84,200     $102,300
                   K                   $78,900     $100,600     $122,300
Largest Airports   TSES-3              $99,000     $122,400     $145,800
 \6\
------------------------------------------------------------------------
 \1\TSA is using FAA's pay bands as directed in section 101 of the
  Aviation and Transportation Security Act: The personnel management
  system established by the Administrator of the Federal Aviation
  Administration under section 40122 shall apply to employees of the
  Transportation Security Administration . . . As TSA gains experience
  with this system, it expects to make changes to it to reflect the
  needs of its mission. The salary levels shown do not include locality
  pay.
 \2\In pay banding systems employees, other than new hires, tend to
  cluster around the midpoint of the band. As TSA stands up the airport
  security organization in 2002, virtually all of the screening
  employees will be paid at the low end of the D Band.
 \3\It is the intention of TSA to hire a mix of full, part-time, and
  seasonal screeners to accommodate seasonal and daily variations in
  airport passenger flows.
 \4\Law enforcement availability pay (LEAP) will be provided to criminal
  investigators and Federal Air Marshals, but not to uniformed officers.
  Uniformed officers and law enforcement supervisors of uniformed
  officers will be paid overtime rather than LEAP until a review of
  actual practices allows TSA to determine whether LEAP or overtime is
  more cost effective. Law enforcement management will not be eligible
  for LEAP pay unless their primary function is criminal investigations
  or they are air marshals.
 \5\Federal Security Directors do not get LEAP pay.
 \6\Approximately 50 airports.
 \7\These charts do not inctude pay levels for TSA headquarters staff or
  for TSA support staff at airports.


    Question. Shortly after September 11th, El Al gave a briefing to 
Members of the Commerce Committee, At that briefing El Al recommended a 
security model to the U.S. that puts the government in control of a 
multi-layered security net that relies on the sharing of information 
all the way up the ladder--from the screener who checks passengers and 
baggage to the airport operator, all the way up to the top government 
officials in the Israeli chain of command.
    As you know, the new aviation security law establishes a 
Transportation Security Oversight Board which will work with the 
intelligence community in coordinating intelligence information. In 
addition, will the DOT and the TSA take a page from the El Al book and 
ensure the coordination of intelligence information throughout the 
layers of our aviation system, including our screeners, law enforcement 
personnel, federal airport directors, the TSA and DOT?
    Answer. Through the use of CAPPS-II, the security processing 
required of each passenger on a by-name basis will be available to 
airline check-in agents, screeners at the checkpoint, the Federal 
Security Director, and where appropriate, law enforcement personnel.
    The Federal, State and local law enforcement officers and the 
screening checkpoints they monitor are our first and last line of 
defense at our airports. Our intelligence organization publishes a Roll 
Call daily update for airport security and screeners providing 
information on concealed weapons and security bypass techniques based 
on actual incidents and intelligence sources. The Federal Security 
Directors (FSDs) lead and manage the personnel and operations at the 
airport. Our intelligence organization also publishes a classified 
Daily Intelligence Summary and frequent Intelligence Circulars to 
update airport security, thereby providing them timely information on 
threats, concealed weapons and security bypass techniques based on 
actual incidents and intelligence sources. We are evaluating a Remote 
Access Security Program to improve their access to classified 
information. Additionally, they will have personal digital assistants 
that will be used to provide them the same capability as their law 
enforcement personnel.

    Question. As you know, last November 16th an individual breached 
security at Hartsfield and the airport was shut down. I later found out 
that federal criminal penalties are on the books for anyone willfully 
violating security aboard an airplane--but not for someone 
intentionally violating an airport checkpoint. For example, in Georgia 
an individual who willfully violates the secure area of an airport is 
only subject to a misdemeanor which means a maximum penalty involving a 
civil fine up to $1,100 and a year in jail. Accordingly, to close the 
loophole and to help deter similar acts in the future, I have 
introduced legislation, S. 1794, to make the willful violation of an 
airport security checkpoint a federal crime. My legislation will mean 
that violators could face up to 10 years in prison. What are your views 
on my legislation and its purpose?
    Answer. There is no Federal penalty for violation of an airport 
security checkpoint. A standardized Federal penalty could give LEOs at 
the airport the authority and means to enforce security procedures at 
airports with greater consistency.

    Question. What standards have been created for the closure of a 
terminal or emptying of a plane or delay in departure? Who has the 
authority to make such a decision? Are these decisions discussed with 
airline and airport officials?
    Answer. In late October, 2001, Transportation Secretary Mineta 
launched a ``Zero-tolerance'' policy concerning security breaches at 
U.S. airports. At the time, passenger screening responsibilities were 
still under the direct control of U.S. airlines but the move to 
Federalize the process was already underway. The announcement of the 
strict policy was aimed at strengthening safeguards to stop weapons and 
prohibited items from passing security checkpoints. We defined a 
security breach so that all TSA employees were using the same 
definition.
    A security breach occurs when a person, who is unauthorized or an 
object that has not been screened, bypasses screening procedures or is 
improperly admitted to the sterile area.
    On March 25, 2002, TSA published Standard Operating Procedures 
(SOP) for Interim Federal Security Representatives (IFSRs) overseeing 
the security at each of the airports in the U.S. That SOP provides 
guidance and direction for TSA security personnel in managing emergency 
evacuations of airport sterile areas, recall of flights, and the 
rescreening of passengers for cause. This practice continues today.
    The Federal Security Director or Interim Federal Security 
Representative has authority to determine when a security breach 
occurs.
    When a breach in security occurs, the IFSRs have been advised that 
coordination with the airports, air carrier, law enforcement, and TSA 
management must be accomplished to limit the impact of the situation.

    Question. As you well know, pilots' licenses are paper certificates 
with no identifying photo, and they are therefore easier to counterfeit 
than are drivers' licenses. In order to make it harder to forge these 
licenses, I offered an amendment which was included in the new aviation 
security law that requires safeguards to be put in place, including a 
requirement for a tamper-proof color license photograph.
    I'd like your comments on the need to produce pilots' licenses in a 
highly secure format, given the fact that pilots use these licenses to 
help identify an individual who desires to ride the jump seat.
    Answer. TSA has been studying the idea of a universally recognized 
biometric card for any transportation worker who has unescorted access 
to secure locations within a transportation facility, including 
commercial pilots.
    An FAA rulemaking team with TSA membership considered a petition 
from the Aircraft Owners and Pilots Association to require pilots to 
carry a valid photo identification card with their pilot certificates.
    The FAA is considering whether it should incorporate a photo 
requirement for the licenses it issues to general aviation pilots. In 
the general aviation pilot community, considerable anecdotal evidence 
suggests that for many pilot transactions, such as leasing an aircraft, 
there is a commonplace practice of requiring a pilot to show a 
government-issued identification together with a pilot license.
    Until an improved airman certificate can be developed and issued, 
we can fully justify a requirement that pilots carry valid photo 
identification with their pilot certificates.

    Question. The TSA will require administrative office space at each 
commercial airport. For example, its estimated that at Mansfield the 
TSA will require several thousand square feet. Not surprisingly, most 
airports feel that the TSA should pay rent for this space. Secretary 
Mineta, it is my understanding that as part of your supplemental budget 
request, you asked for $36 million to pay for the TSA's use of space 
both at airport facilities and off-airport locations for FY 2002.
    Given your experiences at BWI Airport in terms of the TSA's use of 
space, do you believe you have budgeted enough for this purpose? Mow 
much do you plan to budget for the agency's use of space in fiscal year 
2003?
    Answer. Yes, we believe that we have adequate funding to cover 
office and support space to house the Federal Security Directors and 
their staff the 429 airports. The FY 2003 rent projection is roughly 
$50 million. Unless major increases are made to the number of staff and 
type of staff at each airport, the rent projection for FY 2003 is 
adequate.

    Question. How are you ensuring that each airport has consistent 
security standards? Are standards described to carriers?
    Answer. Part 1542 of Title 49 C.F.R. (Airport Security) requires 
airport operators to adopt and carry out a security program that 
provides for the safety and security of persons and property on an 
aircraft operating in air transportation or intrastate air 
transportation against an act of criminal violence, aircraft piracy, 
and the introduction of an unauthorized weapon, explosive, or 
incendiary onto an aircraft. Airports are required to submit for 
approval Airport Security Programs describing the procedures to be used 
to implement security at each specific airport. Required contents of 
the programs are specified under 49 C.F,R. 1542.113. Airports share 
with air carriers those elements of their security programs that are 
necessary for air carriers to fulfill their security responsibilities. 
In addition, airports meet with consortia made up of a wide range of 
airport stakeholders, including air carriers, to discuss security 
programs and issues.

    Question. Mr. Secretary, you were quoted as calling for a 10 minute 
check-in standard. Where are you on that goal?
    Answer. We are committed to measuring wait time as airport rollout 
continues by collecting baseline information from airports that are 
beginning the Federalization process as well as measurement information 
from Federalized airports.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Max Cleland to 
                             John W. Magaw
    Question. Congress presented you with a very formidable challenge 
in implementing the new aviation security law, and to your credit the 
TSA has come up with a very aggressive security plan. By necessity, our 
new aviation security system will not be cheap. However, the TSA's 
budget has almost tripled over the past few months--from $2.4 billion 
to $6.8 billion. Specifically, I have heard concerns over what, for 
lack of a better term, might be called ``bureaucratic bloating.''
    Is it true that the federal security director at each of the top 81 
airports will have his own personnel department, his own legal staff, 
and his own public relations staff? If true, do you have any estimates 
for what this will cost? How do you answer criticism that some of these 
81 airports will have to rent space in order to accommodate all these 
additional staff?
    Answer. The FSDs at each of the top 81 airports will initially have 
a small staff from human resources, training, customer service, 
engineering, administration and screener scheduling operations. This 
staff is the minimum we believe we need to initiate the security 
coordination and workforce security requirements of the FSDs at each of 
our largest airports. As FSDs assume their full range of security 
responsibilities, they will need to add legal, budget, and community/
stakeholder positions. While the three largest airports will have one 
assistant FSD for screening in each airport with a salary range 
beginning at $78,900, the balance of the staff representatives will 
normally begin at lower pay ranges.
    The 2003 budget assumes a total of 2,500 support positions at the 
airports. The number of staff and type of staff at each airport will 
vary based on size and need. Among other things, we anticipate that the 
largest airports will likely have legal, budget, human resources 
support as well as community/stakeholder positions. The budget also 
includes funding to support space for these personnel.

    Question. Under the new law what security functions at Hartsfield 
will still be performed by local law enforcement? What functions will 
be performed by federal law enforcement? How will the Department of 
Transportation ensure there is coordination and information-sharing 
between local and Federal law enforcement?
    Answer. The deployment of the TSA officers will not replace local 
officers at Hartsfield but supplement the existing law enforcement 
presence. The deployment will be coordinated by the FSD with local 
authorities in order to fully utilize all available law enforcement 
resources to enhance overall security.

    Question. On a related note, many airport operators feel that 
protection of airport perimeters should remain in the hands of local 
airports and local law enforcement. What is TSA's view?
    Answer. TSA is preparing plans for conducting security 
vulnerability assessments at every airport covering the entire airport. 
This activity will be conducted jointly with local law enforcement 
officers working at the airports. lie results of the vulnerability 
assessments will be used to develop a security plan specific to each 
airport, including which functions will be performed by Federal law 
enforcement officers and which will be performed by local law 
enforcement officers.

    Question. Now that the National Guard is about to conclude its 
duties at the nation's airport security checkpoints, I understand that 
the TSA has mandated that these Guardsmen be replaced by local law 
enforcement personnel. I also understand that the TSA has offered to 
enter into reimbursable agreements with airport operators to cover 
these increased costs and that agreements with the largest Category I 
airports will get first consideration.
    As you know, our smallest airports often have very little, if any, 
cash reserves available to ``weather the storm'' while waiting for 
reimbursements from federal agencies. When do you anticipate our 
Category III and IV airports--like the Augusta airport, for example--
will get financial assistance from the TSA on this issue?
    Answer. TSA will reimburse airports/police departments on a monthly 
basis for law enforcement services at the screening checkpoints only. 
The amounts paid vary at each airport depending on the number of hours 
the checkpoints are staffed and the hourly amount agreed to in the 
Memorandum of Agreement with each individual agency or airport.

    Question. On Monday at BWI, large numbers of flights were delayed. 
I have heard that the cause of the delay was because the TSA, which has 
taken over security at the airport, did not have the staffing to handle 
the passenger loads. As peak summer traffic builds, these types of 
problems could have devastating results.
    Can you tell us what happened at BWI yesterday? What steps have 
been taken to address the problem?
    Answer. On Monday, May 20, 2002, delays were experienced at BWI, 
chiefly on Pier D. TSA Federalized BWI on May 14, when flight loads 
were average to minimal. However, this week loads greatly increased to 
over-capacity. TSA was adequately staffed the entire day with 30 
screeners and supervisors per shift. However, additional flights were 
added by airlines due to the May schedule change. As a result, there 
was a significant increase in passenger loads on Pier D. The increase 
in passengers, coupled with the fact that there were only 3 security 
lanes, increased line wait times.
    TSA is working with all airlines to identify the critical nature of 
communications on a daily basis when flight schedule changes occur. In 
addition, airlines have collectively developed a customer metering 
system to ensure all airline passengers are moved through checkpoints 
in time sequence. TSA has discussed the efficient use of this system 
for appropriate checkpoints with all airlines. Also, construction is 
ongoing at the Pier D checkpoint. The completion date is scheduled for 
August 1, 2002. The number of security lanes will then be expanded from 
3 to 7 lanes.

    Question. As you know, the new aviation security law mandates that 
by December 31st baggage at all commercial airports must be screened by 
explosive detection equipment. However, I have heard that the majority 
of the nation's airports have not been consulted or told what mix of 
equipment--explosive detection versus trace detection, or a mix of 
both--they can expect in order to meet the year-end requirement.
    What is your plan for consulting with airports on the mix of 
equipment that best serves individual airports? Can all airports--even 
smaller facilities--expect some sort of decision in the near future?
    Answer. Our deployment process calls for appropriate coordination 
with all airports, large and small, and air carriers at both 
preliminary design and final design decision points. This will cover 
both equipment mix and layout.

    Question. When do you hope to finalize your plans for EDS 
installation? Can we realistically expect all airports to have EDS or 
ETD equipment by the end of the year, given the fact that we need 1,100 
new EDS and 4,800 more new ETD machines and we are only seven months 
away from the deadline?
    Answer. Larger airports should achieve preliminary design decisions 
by September. Smaller airports will be staggered between July and 
November. We have a commitment from our supply lines for availability 
and from our contractors for deployment, installation, hiring, and 
training. TSA is taking all appropriate actions to meet the year-end 
mandate.

    Question. I understand that earlier this year, the TSA proposed a 
``National Transportation Worker ID Card'' for workers who have 
unescorted access to a transportation facility or who have access to 
control of a transportation conveyance. Could you provide us with a 
status update of this effort and indicate whether any decisions have 
been made regarding who will have access to the confidential 
information that might be included in such a card?
    Answer. The Transportation Security Administration has been working 
on a variety of means to enhance the security of our nation's 
transportation system. One of the initiatives TSA has studied is the 
idea of a universally identifiable biometric card for any 
transportation worker who has unescorted access to secure locations 
within a transportation facility, such as an airport. Regarding who 
would have access to confidential information, final decisions have not 
been made, but the system would be designed to protect the privacy of 
confidential personal information and limit the number of people with 
access to the information.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Norman Y. Mineta
Budget/Personnel/Supplemental Appropriations
    The House Appropriations Committee last week reported a Fiscal Year 
2002 Supplemental bill which includes $3.85 billion for TSA, $550 
million below the overall request. Moreover, that bill prohibited funds 
for more than 45,000 staff at the agency, as opposed to reported TSA 
estimates of up to 70,000.
    Question. If the limit of 45,000 personnel holds, how will that 
affect your plans?
    Answer. Should a 45,000 cap be placed on the agency, TSA will be 
forced to maintain security with fewer personnel. This could lead to 
significant wait times and airline delays to accommodate a longer 
security process.
    TSA must deploy 33,000 passenger screeners and supervisors to the 
passenger checkpoints at the 429 commercial airports across the country 
to meet the November 19th deadline. Additionally, 22,000 baggage 
screeners and supervisors are needed throughout the commercial airports 
to meet the Aviation and Transportation Security Act requirements of 
screening 100 percent of checked baggage.
    These staffing levels were developed to ensure that the security 
requirements are met by the mandated deadlines and will not adversely 
affect the amount of time a traveler must spend to pass through the 
federal security process. TSA intends to continuously monitor the 
workload requirements to take advantage of all efficiencies within the 
processes in order to respond quickly to changes in staffing 
requirements. Initial checkpoint redesign efforts have improved 
efficiency by over 40 percent.

    Question. Press reports suggest that you are having difficulties 
finding screeners. Can you comment on these reports?
    Answer. Some areas, particular large, high cost cities, have 
presented recruitment challenges. However, outreach and additional 
marketing efforts are resulting in sufficient applicant pools.

    Question. Can you break your employee estimates down further? Why 
have these estimates increased from those you submitted last Fall?
    Answer. The requirements to perform passenger screening have not 
changed. TSA requires screening personnel at both passenger checkpoints 
and checked baggage screening locations.
    TSA requires 33,000 screeners and supervisors to staff the 
checkpoints for screening passengers to meet the November 19th 
deadline. Additionally, in order to screen 100 percent of checked 
baggage, a workforce of 22,000 baggage screeners and supervisors is 
required.
    The total staff requested in 2003 for TSA is 67,200 which in 
addition to passenger and baggage screening workforce includes federal 
law enforcement officers, support staff as well as staff to support 
TSA's maritime and land intelligence, and research and development 
programs.

    Question. Can you specifically describe the impact on your 
personnel needs of your decision to employ trace detection exclusively 
at many small airports? How would this compare to combining trace 
detection and EDS machines at all airports?
    Answer. As a general rule, the operation of trace detection 
machines requires more personnel than the operation of EDS machines. 
For instance, at a category III airport where the baggage volumes are 
high and either an EDS or ETD machine can be used, it takes 
approximately 5 more individuals to screen baggage using ETD machines 
because it takes 3 ETD's to obtain the equivalent throughput of 1 EDS. 
However, for smaller airports (category IV), the throughput 
requirements are lower so that the difference between EDS and ETD is 
negligible. Also, due to lower throughput numbers at these airports, 
EDS machines would likely be underutilized, resulting in a negative 
cost to benefit ratio.
    TSA will meet the statutory requirements through a mix of EDS and 
ETD machines with protocols to assure the requirements are met. To 
date, TSA has not calculated the difference in personnel between 
deployment of ETD at exclusively small airports as opposed to combining 
trace detection and EDS machines at all airports.

    Question. Airports and airlines have raised a number of issues 
about delays in getting paid. Can you provide further information on 
how you are providing reimbursement of airports for activities such as 
law enforcement?
    Answer. TSA is currently reimbursing airports and/or police 
departments on a monthly basis for law enforcement services at the 
screening checkpoints only. The amounts paid vary at each airport 
depending on the number of hours the checkpoints are staffed and the 
hourly amount agreed to in the Memorandum of Agreement with each 
individual agency or airport.
EDS and Trace Detection
    A few weeks ago. Secretary Mineta announced that, while large 
airports will receive both EDS and trace detection, smaller airports 
will, at least for now, receive only trace detection. Consistent with 
this announcement, DOT has ordered only 1100 EDSs and more than 5,000 
trace detection systems.
    Question. If you go through with your deployment decision, will you 
commit to deploying lighter, cheaper, and faster ``next generation'' 
EDSs at all airports? Do you have a specific time frame for deployment?
    Answer. Deployment of next-generation EDS will be driven by the 
economic and operational impacts at individual airports. Deployment 
decisions will be made on a case-by-case basis. Our expectation is that 
deployment may begin two to three years from initiation of research and 
development efforts.

    Question. What research and development resources will you commit 
in order to accomplish this?
    Answer. A significant portion of TSA's research and development 
resources will be committed to this effort, and we expect this to be 
supplemented by resources and funding from our partners.
Passenger-matching and authentication technologies
    TSA is working on technologies that would (I) match passengers' 
names with law enforcement, intelligence and other databases; and (2) 
authenticate the identities of pilots, flight crews, and law 
enforcement personnel with access to secure areas.
    Question. How far away are we from being able to usc technologies 
such as biometrics to authenticate passengers' identities are we?
    Answer. TSA is exploring the use of technology for the 
authentication of identities of pilots, flight crews, and law 
enforcement personnel with access to secure areas.
    Biometric systems are being tested in conjunction with airport 
pilot programs. Some appear to work well, and others are just now 
evolving to the point of maturity with acceptable rates for false 
positives and false negatives.
    We need to conduct more research on this issue and explore the 
legal, operational, and procedural issues surrounding the use of 
biometrics prior to reaching a conclusion regarding the use of this 
technology for either transportation personnel or passenger 
authentication, We will continue to examine many technologies and 
technical solutions in our ongoing effort to improve security. The data 
from the pilot programs will determine next steps and the timeline.

    Question. What policy issues are you working through as you 
consider the deployment of such technologies?
    Answer. TSA is investigating both policy and legal issues 
surrounding the deployment and use of biometrics technology. Before 
reaching a conclusion regarding the use of this technology, the 
following areas are being examined: (1) access control and security of 
privacy data; (2) background checks; and (3) claimed identity 
documentation requirements.

    Question. Will you consider a pilot program to test such 
technologies?
    Answer. Yes, pilot programs will be an important part of TSA's 
incremental approach to resolving issues of scale and complexity in 
current and projected programs. TSA will ask airport managers to submit 
pilot proposals by August 1, 2002.

    Question. What safeguards are you considering to ensure protection 
of confidential information collected using passenger-matching and 
authentication technologies?
    Answer. Every effort is being made to secure confidential 
information. Subject matter experts and need-to-know personnel are 
keenly aware of the sensitive nature of this information and are 
applying the appropriate technologies and policies. Both the 
information and physical architecture upon which it resides are locked 
down.

    Question. More generally, when background checks are conducted on 
airport personnel, what safeguards have you put in place, or are you 
considering, to ensure that the information contained in these checks 
is not distributed or used for non-authorized purposes?
    Answer. This information is protected under the Privacy Act. Under 
the current process for performing background cheeks on airport 
personnel, fingerprints are submitted to the Office of Personnel 
Management (OPM) and then transmitted to the Federal Bureau of 
Investigation (FBI). Returns from the FBI are routed through OPM, where 
a record of the inquiry is created before the information is forwarded 
to the FAA.

    Question. The new Federal security employees--who will be the front 
line of defense against terrorism--cannot be threatened with 
disciplinary action or reprisal for reporting legitimate safety and/or 
security threats. At the same time, you must have the flexibility to 
discipline those who do not perform up to the highest standards. Can 
you elaborate on your plans to implement whistleblower protections for 
security screeners?
    Answer. Although the Federal Security Screeners arc not covered by 
the Whistleblower Protection Act (WPA), TSA will soon finalize a 
memorandum of understanding (MOU) with the Office of Special Counsel 
(OSC) which will ensure that Federal Security Screeners have a 
mechanism for raising claims of retaliation for whistleblowing similar 
to that afforded employees covered by the WPA. Pursuant to the MOU, 
OSC, the independent Federal investigative and prosecutorial agency 
charged with responsibility for enforcing the WPA, will receive and 
investigate any allegations of retaliation for whistleblowing filed by 
Federal security screeners. OSC will utilize procedures similar to 
those applicable to employees covered by the WPA. Security screcners 
may file a complaint with OSC alleging that a personnel action was 
threatened or taken against them because they made a protected 
disclosure of information which they reasonably believed evidenced a 
violation of law, rule or regulation, gross mismanagement, gross waste 
of funds, an abuse of authority or a specific and substantial danger to 
public health and safety. OSC will conduct an investigation of the 
complaint to determine whether there exist reasonable grounds to 
believe that retaliation has occurred. In appropriate cases, OSC may 
recommend that TSA stay a personnel action pending completion of its 
investigation. If upon completion of its investigation OSC concludes 
that retaliation has occurred and if the matter cannot be settled 
informally, OSC will send a formal report of its findings to the Under 
Secretary recommending corrective action.

    Question. As you have gone through the process of federalizing the 
airport security workforce, how are you dealing with labor and 
employment issues such as pay, benefits, and collective bargaining? Do 
you believe security personnel should be treated similarly to other 
federal employees with respect to these issues, or are you considering 
different treatment?
    Answer. Federal security screeners will receive most of the same 
rights and benefits afforded other Federal employees, including 
retirement, health insurance, life insurance, paid vacation and sick 
leave. Their pay system is the same core compensation system applicable 
to all FAA and TSA employees. Screeners will also have protection from 
unlawful employment discrimination, whistleblower protection (pursuant 
to a memorandum of understanding with the Office of Special Counsel), 
and due process procedures for disciplinary actions. A decision has not 
yet been reached on collective bargaining rights to be afforded Federal 
security screeners.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                   Norman Y. Mineta and John W. Magaw
    Question. Mr. Secretary and Undersecretary Magaw, especially in the 
post-September 11 world, it is essential that workers--who are the 
front line of defense against terrorism--not feel threatened in any way 
with disciplinary action or reprisal for reporting safety and/or 
security threats.
    Why is this Administration so reluctant to grant whistleblower 
protections for federal airport security screeners? They already exist 
for workers elsewhere in the aviation industry, and for government 
employees in comparably sensitive jobs.
    Answer. I agree that our Federal security screeners must feel free 
to report safety or security concerns without fear of retaliation. This 
is why TSA will soon finalize a memorandum of understanding with the 
Office of Special Counsel (OSC) pursuant to which allegations of 
retaliation for whistleblowing may be filed with the OSC by Federal 
security screeners. Although these employees are not covered by the 
Whistleblower Protection Act (WPA), we will enter into this agreement 
so that OSC may investigate claims of retaliation under procedures 
similar to those applicable to employees covered by the WPA. This 
memorandum of understanding, and the informational efforts about 
whistleblower protection we will undertake, will ensure substantial 
protection to our Federal security screening personnel.

    Question. Trace detection systems can and should play a meaningful 
role in aviation security. But I am concerned that trace is now being 
considered as stand-alone explosive detectors for checked baggage at 
smaller airports. Now, I am very sensitive to the enormous logistic and 
cost challenges that you face in trying to meet the December 31 
deadline. But it is also clear to me that deployment of trace alone is 
insufficient. Frankly, I think that we ought to strive for, ultimately, 
a system similar to the Israeli model, where trace and EDS are 
complementary.
    If trace deployment is to be an interim step, that maybe 
acceptable, as long as we have a clear and reasonable timetable for the 
full deployment of EDS equipment. Can you provide us with such a plan?
    Answer. Full deployment of EDS equipment is predicated on our 
ability to achieve next generation equipment and capabilities. 
Deployment of next-generation EDS would be achieved by gradually 
replacing and redeploying current EDS equipment to maintain the base of 
EDS coverage.

    Question. It is with great concern that I have heard rumors: that 
the Administration plans to draw-up rules that would, essentially, 
allow trace detection systems to be treated as providing equivalent 
capability as EDS.
    At the same time, I understand that the first system--developed 
through the ARGUS program--designed for explosive detection screening 
at smaller airports will soon be certified. It is my strong hope that 
trace and EDS equipment will be part of a complementary, layered system 
of explosive detection. But in light of the role that trace is expected 
to play at smaller airports, how will the new ARGUS systems be used?
    And, furthermore, is the ARGUS program even worth continuing? It 
seems to me that if trace is considered equivalent, and used as a 
stand-alone security technology, we will destroy incentive to industry 
and the scientific community to develop new and better technologies. 
Personally, I believe we need to keep encouraging exactly this kind of 
research and development. But based on the rumors I have heard about 
plans to treat trace and EDS as equivalent, I am not sure that is the 
Administration's belief. Can you please clarify?
    Answer. The first ARGUS system has been certified. The ARGUS system 
is designed for low throughput applications but at this time has not 
met cost objectives and has not been proven in operational utility 
testing. ARGUS may indeed be appropriate for smaller airports or 
smaller throughput applications but validation of this has not been 
completed. Our major focus remains development of next-generation EDS 
capability.

    Question. Part of the Aviation and Transportation Security Act 
called for the increased sharing of information among intelligence 
agencies through the Transportation Security Oversight Board. I favor 
the development of a database that compiles FBI, CIA and INS watch 
lists. The airlines would then check their manifests against this 
database. It is clear that such a system could have prevented at least 
two of the September 11 hijackers from boarding aircraft.
    Again, Mr. Secretary, I am aware that this matter is not entirely 
within your purview, but you are the Chairman of the ISOB, and as we 
cannot hear from Mr. Ridge, would you explain how the TSOB is 
proceeding, and whether you are getting the kind of adequate 
cooperation you need from other members of that Board?
    Answer. As you are aware the TSOB was developed to increase 
intelligence sharing among agencies and to oversee implementation of 
transportation security issues. Members of the TSOB include officials 
of the Dept of Treasury, Office of Homeland Security, Dept of Justice, 
Central Intelligence Agency, as well as the National Security Council. 
The TSOB has principally focused on the stand-up of the Transportation 
Security Administration and completion of congressionally mandated 
deadlines, though in the future I expect to utilize the Board to 
address any identified shortcomings in intelligence information 
sharing.
    In regards to watch lists, one planned component of the CAPPS-II 
functionality will involve checking the full names of all passengers 
against a government-maintained terrorist watch list. The principle is 
that such passengers would not be permitted to board the flight unless 
cleared to do so by law enforcement. (This reverses the process now in 
use, whereby the airlines are responsible for checking names provided 
by government against the passenger name record of their passengers.)
    It has not yet been determined which watch list(s) will be used (or 
which agencies will he responsible for generating and maintaining it).
    In the meantime, we continue to improve and strengthen our 
intelligence information sharing with the agencies represented on the 
Board, as well as the rest of the intelligence and law enforcement 
community. We do feel we are receiving the cooperation from members of 
the Board that is so critical to securing our transportation system.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John McCain to
                            Norman Y. Mineta
    Question. Personnel estimates for TSA have ranged as high as 
70,000, and it has been reported that 50 percent of that total would be 
needed for baggage screening.
    What are your estimates for the number of personnel needed for the 
operation of trace-devices compared to the number needed for EDS 
equipment?
    Answer. In order to effectively staff an explosives detection 
machine combined with trace equipment, approximately seven people will 
be required. For stand-alone explosive trace equipment, TSA estimates 
that it will take approximately five staff.

    Question. A recent news article reported that Dallas-Fort Worth 
Airport estimated that trace devices would require about 2.5 times the 
number of workers needed to screen the same number of bags using EDS. 
Do you consider that a reasonable estimate? If so, what are the longer 
term cost implications of deploying such a large number of trace 
devices?
    Answer. TSA is unable to judge the reasonableness of this news 
article estimate or its longer-term cost implications without having 
the benefit of knowing the detailed assumptions on which it is based.

    Question. I have further concerns that such a large screening 
workforce will lead to a sizeable bureaucracy to oversee it. How many 
of the total number of TSA personnel will be located in headquarters 
and what. in general, will their functions be?
    Answer. TSA plans to have a flat organization, with most of the 
personnel in the field but reporting to headquarters. Efforts have been 
made to hold headquarters staffing at minimum levels. We anticipate a 
headquarters staff of approximately 1,355; 1,175 in Washington and 180 
trainers and attorneys located in the field, but reporting to 
headquarters. The headquarters staff will support a wide range of 
functions including legal counsel, strategic management, information 
technology, and budget and financial management, as well as program 
specific policies and guidelines.

    Question. How will TSA oversee the screening workforce and ensure 
that a top-heavy bureaucracy does not develop.
    Answer. In order to streamline the administrative operations at the 
airports, key airports have been designated as hubs. These hubs will 
provide security direction, administrative support, and staff as needed 
to smaller, less staffed airports. TSA plans to hire in the range of 
160 Federal Security Directors nationwide to oversee security at the 
429 commercial airports. All federal security directors will report 
directly to headquarters. TSA believes that this is consistent with a 
flat organization.

    Question. What are TSA's total workforce needs and how does that 
break down in terms of baggage screening, passenger screening, and 
other categories?
    Answer. TSA must deploy 33,000 passenger screeners and supervisors 
to the passenger checkpoints at the 429 commercial airports across the 
country to meet the November l9th deadline. Additionally, 22,000 
baggage screeners and supervisors are needed throughout the commercial 
airports to meet the Aviation and Transportation Security Act 
requirements of screening 100 percent of checked baggage by December 
31, 2002.

    These staffing levels were developed to ensure that the security 
requirements are met by the mandated deadlines and will not adversely 
affect the amount of time a traveler must spend to pass through the 
federal security process. TSA intends to continuously monitor the 
workload requirements to take advantage of all efficiencies within the 
processes in order to respond quickly to changes in staffing 
requirements. Initial checkpoint redesign efforts have improved 
efficiency by over 40 percent
    Question. About what percentage of your staff is in place at this 
point within TSA?
    Answer. Not including FAMs, approximately 2 percent of TSA's 
workforce is in place based on the staffing level requested for 2003.

    Question. In the TSA's recent screening deployment report, there is 
a comment that the agency may rely on local airport personnel to assist 
in carrying out checked bag screening functions at the Hagerstown test 
bed. I believe the law is clear that screening is to be performed by 
Federal employees, except for the pilot programs that cannot yet be 
undertaken. How would local airport personnel be used in this 
situation?
    Answer. Screening must be performed by Federal employees after the 
statutory deadline. Because we are still operating before the deadline, 
there is no requirement that the test be performed by Federal employees 
at the Hagerstown test bed.

    Question. The Aviation and Transportation Security Act authorized 
DOT to allow pilots to use either firearms or less-than-lethal weapons 
under certain circumstances. This issue has generated considerable 
controversy. Do you intend to allow pilots to carry weapons aboard 
aircraft under any of the conditions described in the law?
    Answer. As noted, the use of weapons on aircraft has been 
controversial. TSA continues to examine the ramifications of proposals 
to allow pilots to carry firearms and may conduct a technical review of 
this matter. A similar technical review on ``less than lethal'' weapons 
has already begun. We expect it to be competed in September.

    Question. I understand that TSA has been developing models and 
plans for how the agency will take over control of security operations 
at individual airports. I am informed that one of the midterm 
capabilities that TSA hopes to have at airports is government issued 
cars with emergency lights for any staffer designated by the Federal 
Security Director. In addition, an item on the agency's long term wish 
list is a gym area at each airport. While I support giving the agency 
adequate resources to handle its core mission, these are the types of 
things that have the look of bloated bureaucracy. What steps are you 
taking to ensure that the cost and size of the TSA does not begin to 
spin out of control?
    Answer. TSA is committed to responsible stewardship of the public 
funds appropriated for airport security operations TSA is vigorously 
reviewing all budget and funding requests to assure that only basic 
operational needs are met. The budget request does not include any 
provision for cars with emergency lights or gym facilities. Allocations 
and spending guidelines are being developed to ensure that TSA's core 
mission can be met within the funding appropriated.

    Question. I recognize that explosive trace detection (ETD) devices 
are relatively inexpensive and can be deployed quickly. However, there 
may be significant long-term cost issues associated with the use of 
ETDs. If it is true that it requires more screeners to use several ETD 
devices instead of one explosive detection system (EDS) machine, any 
short term cost savings will lead to larger personnel expenses in later 
years. Will these cost issues influence decisions regarding the use of 
ETD equipment as a permanent solution?
    Answer. ETD's are not anticipated to remain as the permanent 
solution, except in the smallest of airports where passenger and 
baggage throughput requirements are minimal. Although detection 
capability is the primary consideration in developing a permanent 
solution, minimizing total life cycle costs, including staffing 
resources required to perform checked baggage screening, is a major 
consideration in the decision process.

    Question. Concerns have been raised about potential reliability 
problems with EDS and trace equipment. For example, it has been 
reported that trace devices are frequently not operational, mostly 
because of maintenance related problems. Complaints have also been made 
about the availability and reliability of trace equipment, the intense 
maintenance effort required to keep units operating, the lack of vendor 
support, inadequate training, and the high cost of replacing consumable 
items.
    What are the maintenance needs of both trace and EDS? Have regular 
maintenance schedules been developed?
    Answer. New EDS machines are deployed with a one-year warranty; new 
ETDs are deployed with a two-year warranty. Maintenance schedules have 
been developed for both ETD and EDS equipment. The TSA will be 
transitioning the management of its responsibilities for ETD and EDS 
maintenance from reimbursable agreements with the air carriers to a 
contractor. The contractor will be responsible for setting up a 24-hour 
call center for unscheduled maintenance events as well as managing a 
preventative maintenance program. Further, much of the routine ETD 
daily and preventative maintenance can be performed by properly trained 
TSA baggage screeners.

    Question. Who will be in charge of equipment upkeep and maintenance 
and who will pay for it? If airports are responsible, will the 
associated costs be reimbursable by Federal funds?
    Answer. A contractor to TSA will manage and/or perform routine and 
major maintenance on TSA security equipment.

    Question. How much of the time does TSA anticipate EDS and trace 
equipment will be offline due to the maintenance related or reliability 
problems?
    Answer. The average operational availability for currently deployed 
EDS equipment is approximately 95 percent. Current EDS equipment 
purchase contracts call for operational availability to be improved to 
96 percent or greater. Indeed, some models of EDS equipment already 
average greater than 98 percent operational availability. EDS equipment 
vendors arc cooperating on a continuous improvement program to 
significantly improve EDS reliability. Regarding ETD availability, when 
properly maintained the average operational availability is greater 
than 98 percent.

    Question. Has TSA developed backup systems that may be used in the 
event that a sufficient number of explosive detection units are not 
available at a particular airport due to maintenance needs or other 
reliability problems?
    Answer. The current operational availability and downtime of the 
equipment will be factored into the design plans and equipment 
requirements for deployments at each airport. Equipment redundancy, 
alternative screening equipment backups and contingency measures will 
be established for each airport installation commensurate with the 
average amount of downtime anticipated for the model(s) of equipment 
used as the primary baggage screening device(s). TSA has also developed 
ETD equipment supply options as a contingency in the event that the EDS 
equipment manufacturers cannot provide all of the equipment needed on 
schedule.

    Question. Under Secretary Magaw, we are more than six months beyond 
enactment of the Aviation and Transportation Security Act, and there 
are seven months until the year-end deadline that baggage at all 
commercial service airports be screened by explosive detection 
equipment. And yet, today, the majority of the nation's airports have 
not been consulted with or told what mix of equipment will be deployed 
at their facilities.
    What is your plan for consulting with airports on the mix of 
equipment that best serves the individual facilities?
    Answer. A contractor team will be deployed to 429 airports to 
consult with the airport operators. federal security directors, and air 
carrier stakeholders to develop a plan to meet the December 31 deadline 
for 100 percent checked baggage screening. When an airport has already 
developed a plan, the team will analyze this plan and consider all 
available alternatives. Once the initial assessment is performed, TSA 
will be consulted and options evaluated, The contractor and TSA will go 
back to the airports to present the results of their evaluation and the 
preferred options to secure stakeholder concurrence prior to full-scale 
design, permitting and site preparation activities.

    Question. When do you hope to finalize your plans for EDS 
installation?
    Answer. All airport plans will be completed by the end of October. 
Plans for some complex, larger airports have already been formulated as 
a result of initiatives by local airport authorities and their 
consultants.

    Question. Can all airports--even smaller facilities--expect some 
sort of decision in the near future?
    Answer. Smaller airports will be assessed in parallel with the 
assessments at larger airports.

    Question. Since DOT announced its plans to use trace devices, 
several security experts have been quoted in the press stating that 
trace is not as effective as EDS in detecting explosives, especially 
when only the outside of the baggage is swabbed. They indicated that 
opening baggage to swab the interior provides more effective screening, 
but is obviously intrusive and time-consuming.
    What protocol--open or closed--do you plan to have screeners use 
when trace devices are used alone?
    Answer. Based on the projected availability of equipment and 
operators, TSA intends to implement a multiple procedure screening 
solution. During peak times, a portion of all bags will receive an 
outside trace; another portion of bags will receive an open-bag trace 
with sampling of selected objects within the bag; and, the remaining 
bags will receive an aggressive open-bag search where all objects 
within the bag will be independently swabbed. The bags to be subjected 
to each type of search procedure will be chosen randomly, and no more 
than 40 percent of the total bags will receive an outside trace search. 
In addition, all CAPPS selectee bags will all receive an aggressive 
open-bag search.

    Question. Will the protocol be different at locations where trace 
is used with EDS vs. stand alone?
    Answer. When EDS is present, the portion of bags subject to open-
bag aggressive search, plus all selectee bags, may also be screened 
through the EDS. Any EDS alarm bags will be subject to the aggressive 
open-bag search.

    Question. What are TSA's plans beyond December 31 for screening 
baggage? Will trace devices that are used as the primary baggage 
screening method eventually be replaced by EDS? If so, when does TSA 
plan to begin phasing out the use of trace only and what is the cost 
associated with that activity? Is there a long term plan to deploy EDS 
machines at all airports?
    Answer. TSA intends to begin pursuing a long-term explosive 
detection system strategy that emphasizes in-line installations 
integrated into the baggage handling systems. ETD equipment used as a 
primary screening device at larger airports will eventually need to be 
replaced by partially or fully integrated equipment. Airports 
undergoing terminal construction or renovation would be among the first 
to receive in-line EDS equipment. For smaller airports, TSA may begin 
operational testing of the ARGUS EDS equipment, developed for lower 
cost, lower throughput applications. TSA is pursuing the development of 
a faster, cheaper, more nimble explosive detection system to replace 
the current EDS equipment. It is anticipated that a next generation of 
EDS will be available in 5 years.

    Question. At present, the financial situation of the airline 
industry is dismal. Furthermore, rural airports in some parts of the 
country have been struggling to retain air service at affordable 
prices. Because passengers may prefer to drive a few hundred miles to 
their destinations or to larger airports that have less intrusive 
security, what does TSA intend to do to make sure that the use of trace 
devices at smaller airports does not drive away business?
    Answer. TSA believes 100 percent ETD checked baggage screening 
solutions will result in minimal or no adverse impact on passenger 
processing times. The intrusiveness of die ETD search has not been seen 
as a major issue of concern to most passengers. The time it takes to 
process passengers, including situations where bags are screened in 
airport lobbies, appears to be more closely correlated to the number of 
airline ticket agents staffing available positions. `The equipment 
deployment models are designed to accommodate peak passenger processing 
times.

    Question. Under Secretary Magaw, it is my understanding that, on 
April 26, you said that within two to four weeks Raytheon teams would 
visit all 429 commercial airports to determine the appropriate mix of 
equipment to meet the year-end requirement for screening check bags.
    Could you please provide us with a status report of those Raytheon 
visits.
    Answer. Raytheon was tasked to perform security equipment design 
and installation activities under the old FAA integration contract. 
Work performed under the Raytheon task will be transmitted to TSA's 
contractor, both in writing and in a series of technical interchange 
meetings.

    Question. When do you expect them to be completed?
    Answer. TSA's contractor assessment task is more comprehensive than 
Raytheon's original task, TSA's contractor will gather sufficient data 
to model passenger and baggage flow to assess various equipment 
configuration options at the larger airports. Site survey and planning 
activities will be completed by the end of October.

    Question. Will the Raytheon teams visit all 429 airports?
    Answer. TSA's contractor will visit all 429 airports,

    Question. What steps are you taking to ensure that any new types of 
explosive detection equipment, systems, or procedures will provide a 
level of security that is at least as good as currently accepted 
measures? Will there be any type of independent verification of the 
performance standards if such new means of detecting explosives are 
employed?
    Answer. TSA employs an independent operational test and evaluation 
contractor tasked with continuous assessment of security equipment, 
systems, and procedures. The DOT Inspector General also provides 
oversight and independent verification of performance.
                                 ______
                                 

Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to
                            Norman Y. Mineta
    Question. The Air Transportation Safety and System Stabilization 
Act enacted on September 22, 2001, acknowledged the devastating 
economic effects of the events of September 11 on both the airline 
industry and related businesses, including airport security companies. 
The legislation capped liability for claims relating to the terrorist 
attacks of September Ii at the limits of available insurance coverage 
at that time. This liability protection was afforded to air carriers 
and their employees and agents.
    However, the Aviation and Transportation Security Act amended the 
Stabilization Act to exclude the airport security industry from 
liability protection previously afforded under the Stabilization Act. 
As a result, the airport security companies that TSA relies upon for 
the transition to a federalized system are in jeopardy from potential 
exposure to liability claims arising from terrorist attacks of 
September 11. Does the Department of Transportation support extending 
the coverage of the liability cap to airport security companies in 
order to ensure a smooth uninterrupted transition?
    Answer. Yes. Presently the airport security companies performing 
under contract with the Transportation Security Administration are 
operating under either the extended war risk insurance coverage or 
under indemnification provided for under Public Law 85-804. Extending 
the coverage of the liability cap should ensure a smooth uninterrupted 
transition since it will enable many of the TSA's largest airport 
screening companies to continue as viable businesses.

    Question. Failure to restore the liability cap could possibly 
incapacitate the security companies at some point in the near future 
and could cause severe interruption during the transition to the 
federalized system. Do you think exposure to unlimited liability from 
the events of September II threatens the viability of these aviation 
security companies? If this situation occurs, how does the DOT plan to 
deal with a situation where one or more current contractors providing 
security services succumbs to the expected onslaught of these 
lawsuits'?
    Answer. l'he unlimited liability exposure may have a detrimental 
impact of several of the more viable aviation security companies who 
perform services other than passenger screening. In other cases, 
security companies will be going out of business solely because the TSA 
is taking over the only services which they perform. In these cases 
there will be no impact on aviation security.

    Question. Does the Administration support reinstating the liability 
cap for aviation screening companies currently under contract with the 
Transportation Security Administration as a part of the FY02 
Supplemental Appropriations Bill, which is currently in conference?
    Answer. Yes

    Question. Three of the largest 10 cities in the United States are 
in Texas, and three major airlines are headquartered in my state. Many 
of my constituents work in the aviation industry and must pass through 
security checkpoints as part of their daily routines. The increased 
security measures employed since September 11 have had the unintended 
effect of lowering the efficiency and productivity of airline employees 
because they must spend a great deal of time waiting to pass through 
these checkpoints. Pilots have been particularly vocal about these 
delays and their consequent loss of productivity. When TSA begins 
testing a Trusted Traveler Program, I would hope that airline employees 
could be part of the test group. Can you comment on the idea of 
including airline employees as part of your pilot program?
    Answer. TSA is open to the idea of a ``smart'' card, the so-called 
``trusted traveler'' card, and is currently working on a potential 
concept for such a program. TSA will take into consideration all 
proposals, including those concerning the participation of airline 
employees as part of the pilot program, prior to making a decision. Our 
concern is that the level of security and confidence it brings be high 
enough to rule out anyone who might be a threat. The card would have to 
be a reliable method of positively identifying an individual through 
biometric or other technologies; and would have to be difficult or 
impossible to forge or tamper with.

                                  <all>

</pre></body></html>
